APPENDICES

1a
APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 17-15566

D.C. Docket No. 5:16-cv-00051-LGW-RSB
AMY CORBITT, Individually and as Parent and
Natural Guardian of SDC, a Minor,
Plaintiff-Appellee
versus
MICHAEL VICKERS,
Defendant-Appellant

Appeal from the United States District Court for the
Southern District of Georgia

(July 10, 2019)
Before WILSON, BRANCH, and ANDERSON, Circuit
Judges.
ANDERSON, Circuit Judge:
In this case involving an alleged use of excessive
force, Defendant-Appellant Michael Vickers (“Vick-

2a

ers”) asks this Court to reverse the district court’s denial of his motion to dismiss on grounds that he is entitled to qualified immunity. In addition to hearing
from the parties at oral argument, we have carefully
reviewed the briefs, the record, and the relevant case
law. Because Vickers’s actions did not violate any
clearly established rights, we conclude that he is entitled to qualified immunity and that the district court
should have granted his motion to dismiss.
I. BACKGROUND
A. Factual Background.
This case is before us in the posture of an appeal
from the district court’s denial of Vickers’s Fed. R. Civ.
P. 12(b)(6) motion to dismiss. We set forth below the
relevant allegations of the plaintiffs’1 complaint. At all
times relevant to this appeal, Vickers was a deputy
sheriff in Coffee County, Georgia. On July 10, 2014,
Vickers and other officers “participated in an operation to apprehend a criminal suspect, Christopher
Barnett, whom [plaintiffs] ha[d] never met.” The operation spilled over onto Plaintiff-Appellee Amy Corbitt’s (“Corbitt”) property after Barnett “wandered
into the area.”
At the time of the incident, one adult (Damion
Stewart) and six minor children—including Corbitt’s
ten-year-old child SDC and two other children under
the age of three—were outside in Corbitt’s yard. Corbitt and two other minors were inside. At some point
after Vickers and the other officers entered Corbitt’s
yard, the officers “demanded all persons in the area,

1

Four other plaintiffs collectively sought $2,000,000 in damages
(plus punitive damages), but their claims have been withdrawn
or resolved and are not at issue in this appeal.

3a

including the children, to get down on the ground.” An
officer handcuffed Stewart and placed a gun at his
back. The children were outnumbered by the officers,
and plaintiffs alleged at least four of the children (including SDC) “remained seized by deadly firearms.”
Then, “while the children were lying on the
ground obeying [Vickers’s] orders . . . without necessity or any immediate threat or cause, [Vickers] discharged his firearm at the family pet named ‘Bruce’
twice.” The first shot missed, and Bruce (a dog) temporarily retreated under Corbitt’s home. No other efforts were made to restrain or subdue the dog, and no
one appeared threatened by him. Eight or ten seconds
after Vickers fired the first shot, the dog reappeared
and was “approaching his owners,” when Vickers fired
a second shot at the dog. This shot also missed the dog,
but the bullet struck SDC in the back of his right knee.
At the time of the shot, SDC was “readily viewable”
and resting “approximately eighteen inches from . . .
Vickers, lying on the ground, face down, pursuant to
the orders of [Vickers].” Barnett (the fleeing suspect)
“was visibly unarmed and readily compliant” with officers. According to the complaint, “[a]t no time did
SDC, or any other children . . . present any threat or
danger to provoke . . . Vickers to fire two shots.” Importantly, the parties do not dispute that Vickers intended to shoot the dog and not SDC.
Medical imaging confirmed a serious gunshot
wound to SDC’s right knee. Bullet fragments remained in the wound for an extended period of time
after the shooting. SDC suffered severe pain and mental trauma. He received ongoing care from an orthopedic surgeon.

4a

B. Procedural Background.
Corbitt, individually and as SDC’s parent and
guardian, brought a civil action against Vickers in his
individual capacity pursuant to 42 U.S.C. § 1983. The
complaint alleged deprivations of the right to be free
from excessive force as guaranteed by the Fourth and
Fourteenth Amendments to the United States Constitution. Corbitt asked the district court to award special and compensatory damages totaling $2,000,000,
together with unspecified punitive damages.
In response, Vickers filed a motion to dismiss pursuant to Rule 12(b)(6). He asserted that he was entitled to qualified immunity because case law had not
staked out a “bright line” indicating that the act of firing at the dog and unintentionally shooting SDC was
unlawful. In support of this contention, Vickers
pointed to the unpublished decision of this Court in
Speight v. Griggs, 620 F. App’x 806 (11th Cir. 2015),
which observed that “[i]n this circuit, there is no
clearly established right to be free from the accidental
application of force during arrest, even if that force is
deadly.” Id. at 809.
The district court found that Vickers was not entitled to qualified immunity and denied his motion to
dismiss. See generally Corbitt v. Wooten, No. 5:16-cv51, 2017 WL 6028640 (S.D. Ga. Dec. 5, 2017). The district court highlighted several allegations from Corbitt’s complaint, including that no officer was required
to discharge a gun; that no one tried to restrain the
dog; and that SDC was only eighteen inches from
Vickers when Vickers fired at the dog. Id. at *1. The
district court then found that SDC was seized even before Vickers fired a shot. Id. at *4.
Next, the district court reasoned that this case involves an “accidental shooting” and not an “accidental

5a

firing” because, even if Vickers did not intend to shoot
SDC, he did intend to fire his gun at the dog. Id. at *4
& n.4. It then relied on “a reasonable inference from
the allegations in the [c]omplaint, drawn in [Corbitt’s]
favor . . . that Vickers fired his weapon at the animal
in order to keep control of SDC . . . [and] continue [his]
seizure.” Id. at *4. In other words, the district court
thought “a jury could find that Vickers intended to
shoot the animal in order to maintain his control of
the situation and keep [SDC] from escaping.” Id.
The district court then considered whether Vickers was entitled to qualified immunity. It noted this
Court’s general statement in Thornton v. City of Macon that “[i]t is clearly established that the use of excessive force in carrying out an arrest constitutes a violation of the Fourth Amendment.” Id. at *5 (citing
Thornton v. City of Macon, 132 F.3d 1395, 1400 (11th
Cir. 1998)). Relying on this statement, the district
court then concluded that “Vickers is not entitled to
qualified immunity if he used excessive force in firing
his weapon.” Id.
In determining whether Vickers used excessive
force, the district court remarked that in some cases
“no factually particularized, preexisting case law [is]
necessary for it to be very obvious to every objectively
reasonable officer facing [the defendant’s] situation
that [his] conduct . . . violated [the plaintiff’s] right to
be free of the excessive use of force.” Id. at *6 (alterations in original) (quoting Vinyard v. Wilson, 311 F.3d
1340, 1355 (11th Cir. 2002)). It then emphasized that
“[t]he touchstone for reasonableness in animal shooting cases is typically officer safety,” before concluding
that Vickers may have acted unreasonably because
the complaint alleged he fired his gun “without necessity or any immediate threat or cause” and that “no
allegations suggest that Vickers was unsafe in any

6a

way or that Bruce [the dog] exhibited any signs of aggression.” Id. (citations and alterations omitted). The
district court acknowledged that the record could develop differently following discovery—at which time
Vickers might raise the defense of qualified immunity
again—but it ultimately concluded that “[a]t this
stage, the complaint makes sufficient allegations to
proceed.” Id. at *7. Vickers appealed to this Court, and
we now consider whether the district court erred when
it denied Vickers’s motion to dismiss on grounds that
he was not then entitled to qualified immunity.2
C. Arguments on Appeal.
On appeal, Vickers argues the district court erred
in denying his motion to dismiss. He contends there is
only a single act at issue in this case: the firing of his
gun with the intent to strike a dog. He notes the lack
of any cases finding similar conduct to be unlawful,
and emphasizes Supreme Court precedent providing
that a Fourth Amendment seizure occurs “only when

2

To the extent it turns on a question of law, a denial of qualified
immunity at the motion to dismiss stage is an immediately appealable interlocutory order. Behrens v. Pelletier, 516 U.S. 299,
308, 116 S. Ct. 834, 839–40 (1996). This is true even if the district
court “reserved ruling on a defendant’s claim to immunity” until
a later stage of the litigation because the “immunity is a right
not to be subjected to litigation beyond the point at which immunity is asserted.” Howe v. City of Enterprise, 861 F.3d 1300,
1302 (11th Cir. 2017). Indeed, the “driving force behind creation
of qualified immunity doctrine was a desire to ensure that insubstantial claims against government officials [will] be resolved
prior to discovery.” Pearson v. Callahan, 555 U.S. 223, 232–33,
129 S. Ct. 808, 815 (2009) (alteration in original) (internal quotation marks omitted) (quoting Anderson v. Creighton, 483 U.S.
635, 640 n.2, 107 S. Ct. 3034, 3039 n.2 (1987)).

7a

there is a governmental termination of freedom of
movement through means intentionally applied.” See
Brower v. Cty. of Inyo, 489 U.S. 593, 597, 109 S. Ct.
1378, 1381 (1989).
Vickers also argues that this Court’s published decision in Vaughan v. Cox3 and our unpublished decisions in Speight4 and Cooper v. Rutherford5 compel the
conclusion that there is no clearly established right to
be free from the accidental application of force. He
takes issue with the district court’s attempt to “fit the
facts of this case into the framework of Vaughan” because, to Vickers, there is no plausible way to conclude
from the pleadings that his goal in shooting at the dog
was to continue SDC’s “lawful temporary detention incidental to the arrest of Barnett.” He also argues the
circuit split6 on the question of whether the Fourth

3

343 F.3d 1323 (11th Cir. 2003). See also discussion infra, Part
II.C.
4
620 F. App’x 806.
5
503 F. App’x 672 (11th Cir. 2012).
6
Compare Dodd v. City of Norwich, 827 F.2d 1, 7 (2d Cir. 1987)
(refusing to apply reasonableness standard to accidental shooting), with Pleasant v. Zamieski, 895 F.2d 272, 276–77 (6th Cir.
1990) (examining reasonableness even though shooting was accidental). In addition to the cases cited by Vickers, compare
Schultz v. Braga, 455 F.3d 470, 479–483 (4th Cir. 2006) (focusing
primarily on officer’s lack on intent to shoot bystander in rejecting Fourth Amendment claim), with Roach v. City of Fredericktown, 882 F.2d 294, 296–97 (8th Cir. 1989) (rejecting Fourth
Amendment excessive force claim brought by passengers of oncoming car injured as a result of high speed police chase but only
after determining that officer’s use of high speed chase was reasonable under the circumstances).

8a

Amendment is ever violated by the accidental discharge of a weapon is by itself enough to show the law
at issue here is not clearly established, before pointing
to two district court decisions7 from other jurisdictions
that found no constitutional violation on facts somewhat similar to those presented here.
In response, Corbitt agrees with the district court
that SDC was seized throughout the entire incident
(even before Vickers fired his gun at the dog). She argues that Vickers’s act of firing his gun at the dog violated SDC’s Fourth Amendment rights. She then argues this Court should apply the objective reasonableness test from Graham v. Connor8 and find that Vickers acted unreasonably. She contends it is clearly established that the use of excessive force in carrying
out an arrest violates the Fourth Amendment, and
that Vickers used excessive force because the complaint clearly indicates that it was not necessary to
use any force at all.
II. ANALYSIS
A. Qualified Immunity in Motion to Dismiss
Posture.

Although “the defense of qualified immunity is
typically addressed at the summary judgment stage of
a case, it may be . . . raised and considered on a motion
to dismiss.” St. George v. Pinellas Cty., 285 F.3d 1334,
1337 (11th Cir. 2002). Generally speaking, it is proper
to grant a motion to dismiss on qualified immunity

7

Brandon v. Vill. of Maywood, 157 F. Supp. 2d 917, 924–25
(N.D. Ill. 2001); Dahm v. City of Miamisburg, No. C-3-95-207,
1997 WL 1764770, at *9 (S.D. Ohio 1997).
8
490 U.S. 386, 109 S. Ct. 1865 (1989).

9a

grounds when the “complaint fails to allege the violation of a clearly established constitutional right.” Id.;
see also Quiller v. Barclays Am./Credit, Inc., 727 F.2d
1067, 1069 (11th Cir. 1984), aff’d en banc 764 F.2d
1400 (11th Cir. 1985). This is a question of law that is
reviewed “de novo, accepting the facts alleged in the
complaint as true and drawing all reasonable inferences in the plaintiff’s favor.” St. George, 285 F.3d at
1337. When reviewing the denial of a qualified immunity defense asserted in a motion to dismiss, appellate review is “limited to the four corners of the complaint.” Id. “Once an officer has raised the defense of
qualified immunity, the burden of persuasion on that
issue is on the plaintiff.” Id.
B. Qualified Immunity Law.
The qualified immunity defense shields “government officials performing discretionary functions . . .
from liability for civil damages insofar as their conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.”9 Harlow v. Fitzgerald, 457 U.S.
800, 818, 102 S. Ct. 2727, 2738 (1982). The immunity
balances two important public interests: “the need to
hold public officials accountable when they exercise
power irresponsibly and the need to shield officials
from harassment, distraction, and liability when they
perform their duties reasonably.” Pearson v. Callahan, 555 U.S. 223, 231, 129 S. Ct. 808, 815 (2009).
This allows officials to work without fear of liability,
protecting “all but the plainly incompetent or those

9

There is no question in this case that Vickers was acting in his
discretionary capacity as a deputy sheriff when the challenged
shooting occurred.

10a

who knowingly violate the law.” Malley v. Briggs, 475
U.S. 335, 341, 106 S. Ct. 1092, 1096 (1986).
To overcome a qualified immunity defense, the
plaintiff must make two showings. See Griffin Indus.,
Inc. v. Irvin, 496 F.3d 1189, 1199–1200 (11th Cir.
2007). First, she “must establish that the defendant
violated a constitutional right.” Id. Second, she must
show the violated right was “clearly established.” Id.
Although the lower federal courts were once required
to consider the first prong before the second, they are
now “permitted to exercise their sound discretion in
deciding which of the two prongs of the qualified immunity analysis should be addressed first in light of
the circumstances in the particular case at hand.”
Pearson, 555 U.S. at 236, 129 S. Ct. at 818.
For a right to be clearly established, “[t]he contours of the right must be sufficiently clear that a reasonable official would understand that what he is doing violates that right.” Anderson v. Creighton, 483
U.S. 635, 640, 107 S. Ct. 3034, 3039 (1987). This is
because “officials are not obligated to be creative or
imaginative in drawing analogies from previously decided cases,” and an “official’s awareness of the existence of an abstract right . . . does not equate to
knowledge that his conduct infringes the right.” Coffin
v. Brandau, 642 F.3d 999, 1015 (11th Cir. 2011) (alteration in original) (citations omitted). “This is not to
say that an official action is protected by qualified immunity unless the very action in question has previously been held unlawful, but it is to say that in the
light of the pre-existing law the unlawfulness must be
apparent.” Anderson, 483 U.S. at 640, 107 S. Ct. at
3039; see also Hope v. Pelzer, 536 U.S. 730, 736, 739,
122 S. Ct. 2508, 2513, 2515 (2002) (rejecting this
Court’s earlier requirement that “federal law by which
the government official’s conduct should be evaluated

11a

must be preexisting, obvious and mandatory” and not
based on “abstractions” but instead only by “materially similar” cases as too rigid a gloss on qualified immunity law). Indeed, the “‘salient question’ . . . is
whether the state of the law gave the defendants ‘fair
warning’ that their alleged conduct was unconstitutional.” Vaughan v. Cox, 343 F.3d 1323, 1332 (11th
Cir. 2003) (quoting Hope, 536 U.S. at 741, 122 S. Ct.
at 2516).
“Because identifying factually similar cases may
be difficult in the excessive force context,” Lee v. Ferraro, 284 F.3d 1188, 1198–99 (11th Cir. 2002), we may
find fair warning in the law without also finding a factually identical case. In fact, this Court has since Hope
identified three different ways a plaintiff can show
that the state of the law gives officials fair warning of
a clearly established right. First, she can still “show
that a materially similar case has already been decided.” Mercado v. City of Orlando, 407 F.3d 1152,
1159 (11th Cir. 2005). “This category consists of cases
where judicial precedents are tied to particularized
facts.” Loftus v. Clark-Moore, 690 F.3d 1200, 1204
(11th Cir. 2012). In determining whether a right is
clearly established under this prong, this Court looks
to “judicial decisions of the United States Supreme
Court, the United States Court of Appeals for the
Eleventh Circuit, and the highest court of the relevant
state.” Griffin Indus., 496 F.3d at 1199 & n.6. Second,
she can “also show that a broader, clearly established
principle should control the novel facts” of a particular
situation. Mercado, 407 F.3d at 1159 (citing Hope, 536
U.S. at 741, 122 S. Ct. at 2516). “[T]he principle must
be established with obvious clarity by the case law so
that every objectively reasonable government official
facing the circumstances would know that the official’s conduct did violate federal law when the official

12a

acted.” Loftus, 690 F.3d at 1205 (alteration in original). Put another way, “in the light of pre-existing law
the unlawfulness must be apparent.” Id. Third, she
could show that her case “fits within the exception of
conduct which so obviously violates [the] constitution
that prior case law is unnecessary.” Mercado, 407 F.3d
at 1159. Under this final test, the qualified immunity
defense can be successfully overcome in an excessive
force case “only if the standards set forth in Graham
and our own case law inevitably lead every reasonable
officer in [the defendant’s] position to conclude the
force was unlawful.” Lee, 284 F.3d at 1199 (alteration
in original) (citation and internal quotation marks
omitted). Notwithstanding the availability of these
three independent showings, this Court has observed
on several occasions that “if case law, in factual terms,
has not staked out a bright line, qualified immunity
almost always protects the defendant.” See, e.g., Oliver v. Fiorino, 586 F.3d 898, 907 (11th Cir. 2009)
(quoting Priester v. City of Riviera Beach, 208 F.3d
919, 926 (11th Cir. 2000)).
C. The Constitutional Right Allegedly Infringed.

With these basic qualified immunity principles in
mind, our § 1983 “analysis begins by identifying the
specific constitutional right allegedly infringed.” Graham v. Connor, 490 U.S. 386, 394, 109 S. Ct. 1865,
1870 (1989). Two decisions provide relevant guidance
in this regard. First, the Supreme Court in Graham
held that the Fourth Amendment governs “a free citizen’s claim that law enforcement officials used excessive force in the course of making an arrest, investigatory stop, or other ‘seizure’ of his person.” Id. at 388,
109 S. Ct. at 1868–69. Second, “the Fourteenth
Amendment guards against the use of excessive force
against arrestees and pretrial detainees.” J W ex rel.

13a

Tammy Williams v. Birmingham Bd. of Educ., 904
F.3d 1248, 1259 (11th Cir. 2018). Consequently, it is a
threshold question whether SDC was “seized” at any
point during his encounter with Vickers. If SDC was
already seized when Vickers fired at the dog, or if the
act of shooting SDC by itself constituted a seizure,
then this case is properly analyzed under Fourth
Amendment standards. If SDC was not already
seized, and if the act of shooting SDC by itself does not
constitute a seizure, then Fourteenth Amendment
standards must be applied.
What makes this case more difficult than many
excessive force cases is that SDC’s role in the incident
does not fit neatly into any of the usual analytical categories. SDC was not the intended target of an active
arrest or investigatory stop (in which case the Fourth
Amendment clearly would apply), nor was he an arrestee or pretrial detainee (in which case the Fourteenth Amendment clearly would apply). Rather, SDC
was a ten-year-old child who happened to be playing
in his own yard when it became an arrest scene by virtue of circumstances beyond his control. SDC is best
described as an innocent bystander.
Reasonably construing the allegations in the complaint in Corbitt’s favor, Vickers ordered SDC and the
other children to the ground and held them there at
gunpoint. An adult in the yard with SDC and the
other children was placed in handcuffs. Other armed
officers were present, and Vickers eventually discharged his weapon twice. The second shot accidentally hit SDC. We conclude that SDC was already
“seized” when Vickers fired at the dog because “in

14a

view of all of the circumstances surrounding the incident, a reasonable person10 would have believed that
he was not free to leave.” See United States v. Mendenhall, 446 U.S. 544, 554, 100 S. Ct. 1870, 1877 (1980).
And even though the complaint does not allege Vickers applied any physical force against SDC until Vickers’s second shot struck his knee, there was without
question an initial “show of authority” to which SDC
clearly yielded when he lay face down on the ground
pursuant to Vickers’s orders. Cf. California v. Hodari
D., 499 U.S. 621, 626–29, 111 S. Ct. 1547, 1550–52
(1991) (finding that fleeing suspect was not seized until he was tackled because he did not yield to initial
pursuit by officers).
SDC’s status as an innocent bystander is not inconsistent with our conclusion that he was seized by
Vickers before any shots were fired. In making this
observation, we are mindful “that the Fourth Amendment governs ‘seizures’ of the person which do not
eventuate in a trip to the station house and prosecution for crime—’arrests’ in traditional terminology,”
and that “[i]t must be recognized that whenever a police officer accosts an individual and restrains his freedom to walk away, he has ‘seized’ that person.” Michigan v. Summers, 452 U.S. 692, 696 n.5, 101 S. Ct.
2587, 2591 n.5 (1981) (quoting Terry v. Ohio, 392 U.S.
1, 16, 88 S. Ct. 1868, 1877 (1968)).
This general principle applies with equal force in
cases involving innocent bystanders located at the

10

Cf. Doe v. Heck, 327 F.3d 492, 510 (7th Cir. 2003) (finding seizure where “no reasonable child would have believed that he was
free to leave”); Jones v. Hunt, 410 F.3d 1221, 1226 (10th Cir.
2005) (viewing case “through the eyes of a reasonable sixteenyear-old”).

15a

scene of an active arrest. In a case involving the execution of an anticipatory search warrant, this Court
concluded that “officers were authorized to exercise
‘unquestioned command of the situation’ by placing all
the occupants of the Premises on the ground for several minutes while securing the home and ensuring
there was no danger to the officers or the public.”
Croom v. Balkwill, 645 F.3d 1240, 1253 (11th Cir.
2011) (quoting Muehler v. Mena, 544 U.S. 93, 99, 125
S. Ct. 1465, 1470 (2005)). This was true even with respect to an innocent bystander (the homeowner’s
mother Patsy Croom) who was not involved in any of
the criminal activity in which her son was allegedly
participating. After observing that Croom “was seized
in the non-curtilage front yard,” the Court also noted
that the “officers’ authority to detain Croom flowed
not from the warrant, but rather from the Reasonableness Clause of the Fourth Amendment.” Id. at
1248–49 (emphasis added). It then expressly found
that there was no Fourth Amendment violation because the officers had used only de minimis force in
“pushing Croom to the ground from her squatting position and holding her there with a foot (or knee) in
the back for up to ten minutes.” Id. at 1252–53.
We note that at least two other circuits have recognized that even innocent bystanders who are temporarily detained have been subjected to a seizure for
purposes of the Fourth Amendment. See Bletz v. Gribble, 641 F.3d 743, 755 (6th Cir. 2011) (noting that
“even absent particularized reasonable suspicion, innocent bystanders may be temporarily detained
where necessary to secure the scene of a valid search
or arrest and ensure the safety of officers and others”
and concluding that a reasonable jury could find that
hour-long detention of innocent bystander following a
deadly shooting violated the Fourth Amendment);

16a

United States v. Maddox, 388 F.3d 1356, 1362–63,
1367 (10th Cir. 2004) (applying Fourth Amendment
reasonableness standard in concluding that officers
may temporarily seize bystanders in area immediately adjoining arrest scene when seizure is justified
by safety concerns and the scope of the seizure is reasonable under the circumstances); Thompson v. City
of Lawrence, 58 F.3d 1511, 1517 (10th Cir. 1995) (balancing innocent bystander’s Fourth Amendment
rights against “governmental interest in securing the
area around [the target of an arrest operation] and
protecting officers from potential danger” in finding
temporary detention was lawful). For purposes of this
appeal, we find these cases persuasive to the extent
they demonstrate that an innocent bystander who is
not suspected of any wrongdoing may be seized—in
some cases reasonably and in other cases potentially
unreasonably—within the meaning of the Fourth
Amendment.
Given our conclusion that SDC was already seized
when Vickers fired at the dog, we proceed by exercising our discretion to address only the qualified immunity issue as it relates to Corbitt’s claim that Vickers’s second shot at the dog violated SDC’s clearly established Fourth Amendment rights.11

11

Corbitt’s complaint also set forth a Fourteenth Amendment
claim for relief. She declined to withdraw that claim during the
motion hearing before the district court, but the district court did
not expressly reach the Fourteenth Amendment issue in its decision below. Although Corbitt briefed the Fourteenth Amendment
issue before this Court (her arguments are not fully developed),
there is no need for us to reach the issue given our conclusion
that SDC was already seized—thus implicating the Fourth

17a

D. Were Clearly Established Fourth Amendment Rights Violated?

The Fourth Amendment provides a “right of the
people to be secure in their persons . . . against unreasonable . . . seizures.” U.S. Const. amend. IV. The
amendment “encompasses the right to be free from excessive force during the course of a criminal apprehension.” Oliver, 586 F.3d at 905. To establish a Fourth
Amendment claim for excessive force, a plaintiff
“must allege (1) that a seizure occurred and (2) that
the force used to effect the seizure was unreasonable.”
Troupe v. Sarasota Cty., 419 F.3d 1160, 1166 (11th
Cir. 2005).
As noted above, at the time Vickers fired at the
dog, SDC just happened to be playing in his own yard
when, for reasons beyond his control, his yard became
the scene of an arrest operation. Although we have
held that SDC was already seized at the time of the
shot, SDC is best described as an innocent bystander.
And although the commands of the officers that SDC
and the other children lie face down on the ground
were actions directed at SDC and the other children,
Corbitt does not claim that those actions violated
SDC’s Fourth Amendment rights; rather, she claims
that the action of Vickers firing at the dog and accidentally hitting SDC violated the Fourth Amendment.
We hold that Vickers’s action of intentionally firing at
the dog and unintentionally shooting SDC did not violate any clearly established Fourth Amendment
rights.

Amendment—when Vickers shot at the dog. See Graham, 490
U.S. at 388, 109 S. Ct. at 1868–69.

18a

First, we note that Corbitt failed to present us
with any materially similar case from the United
States Supreme Court, this Court, or the Supreme
Court of Georgia that would have given Vickers fair
warning that his particular conduct violated the
Fourth Amendment. Corbitt admitted as much during
the hearing on Vickers’s motion to dismiss before the
district court. Moreover, neither the district court’s order nor our own research has revealed any such case.
Thus, the only way Corbitt can successfully overcome
Vickers’s assertion of qualified immunity is to show
either that “a broader, clearly established principle
should control the novel facts” of this case as a matter
of obvious clarity, or that Vickers’s conduct “so obviously violates [the] constitution that prior case law is
unnecessary.” Mercado, 407 F.3d at 1159. As our cases
suggest, it is very difficult to demonstrate either.
The district court found that Vickers was not entitled to qualified immunity at the motion to dismiss
stage because (1) this Court had previously stated
that “[i]t is clearly established that the use of excessive force in carrying out an arrest constitutes a violation of the Fourth Amendment,” Corbitt, 2017 WL
6028640 at *5 (quoting Thornton, 132 F.3d at 1400),
and (2) Vickers acted unreasonably and used excessive force in firing his weapon because there was no
reasonable threat of harm, id. at *6. This line of reasoning is an application of the second qualified immunity test that asks whether a broader, clearly established principle should, as a matter of obvious clarity, control the novel facts of a case. In so reasoning,
we think the district court placed too much emphasis
on this Court’s statement in Thornton. For starters,
we have expressly said otherwise in other qualified
immunity cases. See, e.g., Mercado, 407 F.3d at 1159
(“[T]he principle that officers may not use excessive

19a

force to apprehend a suspect is too broad a concept to
give officers notice of unacceptable conduct.”); Post v.
City of Ft. Lauderdale, 7 F.3d 1552, 1557 (11th Cir.
1993) (“The line between lawful and unlawful conduct
is often vague. [The] ‘clearly established’ standard demands that a bright line be crossed. The line is not
found in abstractions—to act reasonably, to act with
probable cause, and so on—but in studying how these
abstractions have been applied in concrete circumstances.”), as modified 14 F.3d 583 (11th Cir. 1994).
More important, perhaps, are two recent Supreme
Court cases reminding courts that the qualified immunity analysis requires a clearly established right to
be defined with specificity. In White v. Pauly, the Supreme Court—with palpable frustration—reiterated
“the longstanding principle that clearly established
law should not be defined at a high level of generality.” ___ U.S. ___, ___, 137 S. Ct. 548, 552 (2017) (per
curiam) (internal quotation marks omitted) (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 742, 131 S. Ct. 2074,
2084 (2011)). Instead, “the clearly established law
must be ‘particularized’ to the facts of the case.” Id.
(quoting Anderson, 483 U.S. at 640, 107 S. Ct. at
3039). The Supreme Court ultimately vacated a decision authored by a divided Tenth Circuit panel, faulting it for “fail[ing] to identify a case where an officer
acting under similar circumstances . . . was held to
have violated the Fourth Amendment . . . [and for]
rel[ying] on Graham, Garner, and their Court of Appeals progeny, which . . . lay out excessive-force principles at only a general level.” Id. at ___, 137 S. Ct. at
550–52. Although the Supreme Court acknowledged
that “general statements of the law are not inherently
incapable of giving fair and clear warning[,]” it also
emphasized that “Garner and Graham do not by
themselves create clearly established law outside ‘an

20a

obvious case.’” Id. (first quoting United States v. Lanier, 520 U.S. 259, 271, 117 S. Ct. 1219, 1227 (1997);
then quoting Brosseau v. Haugen, 543 U.S. 194, 199,
125 S. Ct. 596, 599 (2004)).
Just this year, the Supreme Court explained in
another excessive force case:
Specificity is especially important in the
Fourth Amendment context, where the Court
has recognized that it is sometimes difficult
for an officer to determine how the relevant legal doctrine, here excessive force, will apply to
the factual situation the officer confronts. Use
of excessive force is an area of the law in which
the result depends very much on the facts of
each case, and thus police officers are entitled
to qualified immunity unless existing precedent squarely governs the specific facts at issue . . . .
[I]t does not suffice for a court simply to
state that an officer may not use unreasonable
and excessive force, deny qualified immunity,
and then remit the case for a trial on the question of reasonableness. An officer cannot be
said to have violated a clearly established
right unless the right’s contours were sufficiently definite that any reasonable official in
the defendant’s shoes would have understood
that he was violating it.
City of Escondido v. Emmons, ___ U.S. ___, ___, 139 S.
Ct. 500, 2019 WL 113027, at *2–3 (2019) (per curiam)
(alterations in original) (quoting Kisela v. Hughes, ___
U.S. ___, 138 S. Ct. 1148, 1153 (2018) (per curiam)).

21a

In light of these basic principles, we conclude that
the district court erred in relying on the general proposition that it is clearly established that the use of excessive force is unconstitutional. The unique facts of
this case bear this out. Not only was SDC not the intended target of the arrest operation, he also was not
the intended target of Vickers’s gunshot. Both of these
facts take this case outside “a run-of-the-mill Fourth
Amendment violation.” White, ___ U.S. at ___, 137 S.
Ct. at 552. In other words, we are not dealing with “an
obvious case,” and no principles emerge from our decisions that speak with “obvious clarity” to the unique
and unfortunate circumstances that befell SDC. Indeed, we are unable to identify any settled Fourth
Amendment principle making it obviously clear that
volitional conduct which is not intended to harm an
already-seized person gives rise to a Fourth Amendment violation.
Narrower principles do emerge from our excessive
force cases. See, e.g., Vinyard, 311 F.3d at 1348 (finding use of pepper spray on mildly intoxicated and profane misdemeanant constituted “force that was
plainly excessive, wholly unnecessary, and, indeed,
grossly disproportionate under Graham”); Oliver, 586
F.3d at 907–08 (denying qualified immunity where repeated use of Taser on non-threatening subject was
“grossly disproportionate to any threat posed” and
“any reasonable officer would have recognized that his
actions were unlawful”). However, unlike the present
facts these cases—along with those cited by our dissenting colleague in support of an almost identical
proposition—all involve conduct that was intentional
as to the injured plaintiff.
Unlike any prior cases that could clearly establish
the law for this case, at the time Vickers fired at the
dog, SDC was not the intended target of an arrest or

22a

investigatory stop. Nor was he the intended target of
Vickers’s shot; rather, he was accidentally hit when
Vickers fired at the dog. The Supreme Court’s decision
in Brower indicates that a Fourth Amendment violation depends upon intentional action on the part of the
officer. The Brower decision provides:
Violation of the Fourth Amendment requires
an intentional acquisition of physical control.
A seizure occurs even when an unintended
person or thing is the object of the detention
or taking, but the detention or taking itself
must be willful. This is implicit in the word
“seizure,” which can hardly be applied to an
unknowing act. . . . In sum, the Fourth
Amendment addresses “misuse of power,” not
the accidental effects of otherwise lawful government conduct.
Thus, if a parked and unoccupied police car
slips its brake and pins a passerby against a
wall, it is likely that a tort has occurred, but
not a violation of the Fourth Amendment. And
the situation would not change if the passerby
happened, by lucky chance, to be a serial murderer for whom there was an outstanding arrest warrant—even if, at the time he was thus
pinned, he was in the process of running away
from two pursuing constables. It is clear, in
other words, that a Fourth Amendment seizure does not occur whenever there is a governmentally caused termination of an individual’s freedom of movement (the innocent
passerby), nor even whenever there is a governmentally caused and governmentally desired termination of an individual’s freedom of
movement (the fleeing felon), but only when

23a

there is a governmental termination of freedom of movement through means intentionally applied. . . .
....
. . . In determining whether the means that
terminates the freedom of movement is the
very means that the government intended we
cannot draw too fine a line, or we will be
driven to saying that one is not seized who has
been stopped by the accidental discharge of a
gun with which he was meant only to be
bludgeoned, or by a bullet in the heart that
was meant only for the leg. We think it enough
for a seizure that a person be stopped by the
very instrumentality set in motion or put in
place in order to achieve that result. It was
enough here, therefore, that, according to the
allegations of the complaint, Brower was
meant to be stopped by the physical obstacle
of the roadblock—and that he was so stopped.
489 U.S. at 596–99, 109 S. Ct. at 1381–82 (citations
omitted).
Lower court decisions construing Brower have required, in order to state a violation of Fourth Amendment rights, that the officer’s action must have been
intended to stop the plaintiff, the party suing the officer. This reading of Brower finds strong support in
the language quoted above. There is a clear indication
that intentional government action directed toward
the plaintiff, not accidental effects, is required. See id.
at 596, 109 S. Ct. at 1381 (“[T]he Fourth Amendment
addresses misuse of power, not the accidental effects
of otherwise lawful government conduct.” (citation

24a

and internal quotation marks omitted)). Also, the Supreme Court’s hypothetical of the police car rolling
and pinning a person against a wall suggests that a
Fourth Amendment violation occurs only when the
governmental action intentionally targets the person
thus pinned. And no Fourth Amendment violation occurs when the governmental action impacts an innocent passerby, or even when a serial murderer for
whom there is an outstanding warrant is thus pinned,
but only by lucky chance, as opposed to the murderer
having been pinned by intentional action targeting
him.
Lower courts have usually construed Brower to require such intentional action. For example, our own
decision in Vaughan, 343 F.3d 1323, so construed
Brower. There, this Court reversed the district court’s
grant of summary judgment in favor of an officer under the following circumstances. The officer, with another officer, was engaged in a high-speed chase of a
red pickup truck suspected of having been stolen. The
pickup truck was driven by Rayson, and the man in
the passenger seat, Vaughan, matched the description
of the suspect. During a high-speed chase, the officer,
Cox, fired three bullets into the pickup truck, none of
which disabled either the truck or the driver. However, the third bullet punctured Vaughan’s spine, seriously injuring him. This Court reversed the district
court’s grant of summary judgment to Officer Cox, but
only after we concluded that “Vaughan was hit by a
bullet that was meant to stop him,” and therefore “he
was subjected to a Fourth Amendment seizure.” Id. at
1329. In so holding, we rejected as inapplicable cases
from other circuits which had rejected Fourth Amendment claims brought by innocent bystanders or hostages accidentally harmed by police fire, noting that
those “cases are of little aid to our inquiry . . . because

25a

Vaughan was neither an innocent bystander nor a
hostage; instead, he was a suspect whom Deputy Cox
sought to apprehend.” Id. at 1328 n.4.
It is true that the Supreme Court’s decision in
Brower, and our Eleventh Circuit decision in Vaughan
discussed above, focus on the seizure aspect of the
claimed Fourth Amendment violation. And it is also
true that we have held that SDC was already temporarily seized at the command of Vickers and the other
officers who were controlling the scene in their attempt to capture the suspect, Barnett. Thus, Corbitt
argues that Brower’s requirement of intentional government conduct targeting SDC is satisfied, and thus
she can prove a Fourth Amendment violation pursuant solely to the objective reasonableness test without
regard to any further intentionality element.
We conclude that Corbitt’s argument cannot overcome Vickers’s claim of qualified immunity. No case
capable of clearly establishing the law for this case
holds that a temporarily seized person—as was SDC
in this case—suffers a violation of his Fourth Amendment rights when an officer shoots at a dog—or any
other object—and accidentally hits the person. In
other words, Corbitt is not claiming that the officers’
command that SDC and the other children lie face
down on the ground violated Fourth Amendment
rights. Nor is she claiming that any other action of the
officers directed toward SDC and the other children
violated Fourth Amendment rights. Rather, she is
claiming SDC’s Fourth Amendment rights were violated by Vickers’s shot—an action targeting the dog,
not SDC. Corbitt’s Fourth Amendment claim is based
on a governmental action not directed toward SDC
and which only accidentally harmed SDC.

26a

Indeed, dicta in Brower itself (as noted above) suggests that accidental effects do not rise to the level of
a misuse of power constituting a Fourth Amendment
violation.12 See Brower, 489 U.S. at 596, 109 S. Ct. at
1381. Cases from other circuits are generally in accord
with this principle, especially when bystanders are involved. See Schultz v. Braga, 455 F.3d 470, 479–83
(4th Cir. 2006) (declining to extend Fourth Amendment protections to “reasonably foreseeable” victim of
officer’s gunshot where victim was already seized by
traffic stop and officer did not intend to shoot her but
instead intended to shoot her passenger); Childress v.
City of Arapaho, 210 F.3d 1154, 1155–57 (10th Cir.
2000) (holding no Fourth Amendment seizure occurred when two escapees abducted plaintiff and her
two-year-old daughter and stole their minivan, and
law enforcement officers shot intending to restrain the
minivan and escapees but accidentally injured plaintiff and her daughter who were hostages in the
minivan); Medeiros v. O’Connell, 150 F.3d 164, 167–
69 (2d Cir. 1998) (in similar factual situation, holding
no Fourth Amendment seizure and relying upon
Brower, 489 U.S. at 596, 109 S. Ct. at 1381, for the
proposition that the Fourth Amendment addresses
misuse of power, not accidental effects of otherwise
lawful conduct); Landol-Rivera v. Cruz Cosme, 906
F.2d 791, 795 (1st Cir. 1990) (in a similar factual situation, holding: “[a] police officer’s deliberate decision
to shoot at a car containing a robber and a hostage for

12

As indicated above, there is a circuit split as to whether government action which accidentally harms the plaintiff can rise to
the level of a Fourth Amendment violation. See discussion supra
note 6. This only further strengthens Vickers’s claim that he is
entitled to qualified immunity.

27a

the purpose of stopping the robber’s flight does not result in the sort of willful detention of the hostage that
the Fourth Amendment was designed to govern,” and
relying upon Brower for the proposition that the
Fourth Amendment addresses misuse of power, not
accidental effects of otherwise lawful conduct);13 cf.
Dodd v. City of Norwich, 827 F.2d 1, 7 (2d Cir. 1987)
(rejecting a Fourth Amendment claim of a § 1983
plaintiff where suspected burglar was deemed to have
been already seized and holding: “It makes little sense
to apply a standard of reasonableness to an accident.”).14
The foregoing authorities do not support Corbitt’s
argument that once SDC was already seized in an unchallenged manner, the intent requirement of Brower

13

See also discussion infra note 17 (comparing First Circuit case
finding Fourth Amendment violation where accidental effects of
conduct intentionally directed toward plaintiff resulted in shooting death of plaintiff).
14
While it is true that “only binding precedent can clearly establish a right for qualified immunity purposes,” Gilmore v. Hodges,
738 F.3d 266, 279 (11th Cir. 2013), non-binding persuasive authority can be used to indicate that a particular constitutional
right is not clearly established, see Denno v. School Bd. of Volusia
Cty., 218 F.3d 1267, 1272–75 (11th Cir. 2000) (concluding that
school officials were entitled to qualified immunity because, in
part, they could justifiably rely on “the perspective of several reasonable jurists” from outside Eleventh Circuit in navigating the
“relevant legal landscape”). Thus, we need not, and expressly do
not, express an opinion with respect to the correctness of cases
like Schultz, Childress, Medeiros, Landol-Rivera, or Dodd. We
cite such cases solely as examples of opinions of reasonable jurists which indicate that the relevant law is not clearly established.

28a

is satisfied, and a Fourth Amendment violation is established if the officer’s actions were objectively unreasonable. As the Second Circuit noted in Dodd, that
would mean that a Fourth Amendment violation could
be based upon simple negligence. Dodd, 827 F.2d at
7–8. Moreover, the cases noted above have not distinguished between the following two factual situations.
In the first situation, an officer fires at the robber or
escapee and the vehicle in which he is fleeing with the
plaintiff-hostage, but the bullet accidentally also hits
the unseized plaintiff-hostage, thus raising the issue
of whether the bullet striking the plaintiff-hostage
constitutes a Fourth Amendment seizure. This factual
situation is presented in the Brower dicta, and in
cases like Childress, Medeiros, and Landol-Rivera, all
indicating there is no Fourth Amendment seizure in
that situation. In the second factual situation, the
plaintiff-bystander is already seized in an unchallenged manner, but then is harmed accidentally by a
shot fired at someone or something other than the
plaintiff-bystander. For example, in Schultz, the officer fired the shot at the person he believed to be a
robbery suspect in the passenger seat, but “blood and
glass set in motion by the gunshot” hit the alreadyseized Harkum in the driver’s seat. Schultz, 455 F.3d
at 483. The court held that the officer was properly
granted qualified immunity from Harkum’s Fourth
Amendment claim “because the force employed was
not directed towards her,” and because the focus of the
Fourth Amendment “did not involve unintended consequences of government action.” Id. (second quotation quoting from Brower, 489 U.S. at 596, 109 S. Ct.
at 1381). And in the instant case, the already-seized
bystander, SDC, was harmed accidentally when Vickers intentionally fired at the dog. See Dodd, 827 F.2d
at 7–8 (holding no Fourth Amendment violation in a

29a

factual situation involving an accidental shooting during handcuffing after the suspect was deemed to have
been already seized).
Not only have the cases not distinguished between
these two factual situations, it is not obvious that
there should be a different result in the two situations,
in light of the fact that the focus of the Fourth Amendment analysis is on the “misuse of power,” not the “accidental effects of otherwise lawful government conduct.” Brower, 489 U.S. at 596, 109 S. Ct. at 1381. In
other words, it is the “accidental effect” that is significant. Stated in the language of the relevant standard,
the law is not clearly established that there is a
Fourth Amendment violation when an already-seized
bystander, as in the instant case, is accidentally
harmed as an unintended consequence of an officer’s
intentional shot at something else entirely.
In sum, not only is there no materially similar
binding case that clearly establishes a Fourth Amendment violation; dicta from the Supreme Court and
nonbinding case law indicates that reasonable jurists
have found no Fourth Amendment violation in similar
circumstances.15 We conclude that the accidental
shooting, as occurred here, does not constitute a
clearly established Fourth Amendment violation as a
matter of obvious clarity.16 Thus, Corbitt has failed to

15

See also discussion supra note 14.
The district court assumed the Brower intent requirement
could be satisfied by the inference the district court derived from
plaintiffs’ allegations “that Vickers fired his weapon at the animal in order to keep control of SDC . . . [and] continue [his] seizure.” Corbitt, 2017 WL 6028640, at *4. Thus, under the district
court’s construction, Vickers’s shot was an attempt to continue
16

30a

demonstrate a clearly established Fourth Amendment
violation, either by the first method (a materially similar, binding case), or the second method (the violation
is a matter of obvious clarity from such a binding
case). We turn therefore to the third method (the challenged conduct so obviously violates the Fourth
Amendment that prior case law is unnecessary).
This is not a case that so obviously violates the
Fourth Amendment that prior case law is unnecessary to hold Vickers individually liable for his conduct.
To find otherwise would require us to conclude that no
reasonable officer would have fired his gun at the dog
under the circumstances. This we are unable to do.
With the benefit of hindsight, we do not doubt Vickers
could have acted more carefully; the firing of a deadly
weapon at a dog located close enough to a prone child
that the child is struck by a trained officer’s errant
shot hardly qualifies as conduct we wish to see repeated. However, even the underlying constitutional
issue itself (which of course is easier for a plaintiff to
prove than proving that particular circumstances violate clearly established constitutional law) is evaluated pursuant to a “calculus . . . [that] must embody
allowance for the fact that police officers are often

his seizure of SDC, and thus satisfied the required intent element. However, the shot fired by Vickers—the act on which Corbitt bases her allegation of excessive force in violation of the
Fourth Amendment—was clearly targeting Bruce, the dog; it is
absolutely clear that it was by pure accident that the shot struck
SDC. In any event, as demonstrated in the text, the district
court’s position is not supported by clearly established law such
that it would be apparent to any reasonable officer in Vickers’s
shoes that his actions violated the Fourth Amendment.

31a

forced to make split-second judgments—in circumstances that are tense, uncertain, and rapidly evolving.” Graham, 490 U.S. at 396–97, 109 S. Ct. at 1872.
In the instant qualified immunity context, we are cognizant that several cases (some of which are mentioned above) have considered similar accidental
shootings of bystanders, and that many, if not most,
of the jurists involved have concluded that there was
no clearly established Fourth Amendment violation.
Indeed, we are aware of no case and no jurist indicating that such an accidental shooting (i.e., one resulting from volitional conduct indisputably intended to
stop someone or something other than the plaintiff) so
obviously violates the Fourth Amendment that prior
case law is unnecessary to hold that the officer violated clearly established law.17 Moreover, the facts al-

17

Cf. Stamps v. Town of Framingham, 813 F.3d 27 (1st Cir.
2016). In Stamps, the First Circuit denied qualified immunity to
an officer accused of using excessive force during the execution
of a search warrant where the officer pointed a “loaded assault
rifle at the head of a prone, non-resistant, innocent person who
present[ed] no danger, with the safety off and a finger on the
trigger,” then accidentally shot the person to death. Id. at 29, 39–
40.
Although relevant to our discussion here, the legal principle
deemed clearly established in Stamps is materially different
from the principle at issue in this case because Stamps involved
the accidental consequences of conduct otherwise intentionally
directed toward the plaintiff. In Stamps, the officer intentionally
aimed his assault rifle at the plaintiff and then accidentally shot
the plaintiff. Here, Vickers intentionally fired his gun at the dog
and then accidentally shot SDC. Recognizing a similar distinction, the First Circuit in Stamps noted that its decision there was
not inconsistent with its earlier decision in Landol-Rivera, 906

32a

leged here involve “accidental effects” of conduct directed toward something other than the plaintiff, not
the kind of “misuse of power” which Brower suggests
is the focus of a Fourth Amendment violation. Brower,
489 U.S. at 596, 109 S. Ct. at 1381. We conclude that
the circumstances alleged in this case do not so obviously violate the Fourth Amendment such that it
would be apparent to every reasonable officer that his
actions were in violation of the Fourth Amendment.
See Lee, 284 F.3d at 1199 (recognizing that a plaintiff
can surmount a qualified immunity defense by showing “that the official’s conduct lies so obviously at the
very core of what the Fourth Amendment prohibits
that the unlawfulness of the conduct was readily apparent to the official, notwithstanding the lack of case
law” and emphasizing that “[u]nder this test, the law
is clearly established, and qualified immunity can be
overcome, only if the standards in Graham and our
own case law inevitably lead every reasonable officer
in [the defendant’s] position to conclude the force was
unlawful” (second alteration in original) (citations and
internal quotation marks omitted)).
We cannot agree with our dissenting colleague either on the facts or the law. For example, in the absence of allegations of actual facts demonstrating that

F.2d 791. In particular, it observed that the Landol-Rivera court
had relied on Brower’s intent requirement in finding no Fourth
Amendment violation on grounds that “it was not the officer’s
intent to seize the hostage.” Stamps, 813 F.3d at 37 n.10. Put
another way, Landol-Rivera’s “holding simply has no relevance
[to Stamps] since there is no question that Stamps was the intended target of [the officer’s] seizure.” Id. We agree and find that
this case is more like Landol-Rivera than Stamps because Vickers intended to shoot the dog, not SDC.

33a

every objectively reasonable officer in Vickers’s shoes
would necessarily perceive a total lack of reason to
subdue a dog roaming freely at the scene of an active
arrest, we decline to accept the plaintiffs’ conclusory
allegations that there was no need to subdue the dog.
See Davila v. Delta Air Lines, Inc., 326 F.3d 1183,
1185 (11th Cir. 2003) (“[C]onclusory allegations, unwarranted factual deductions or legal conclusions
masquerading as facts will not prevent dismissal.”).
We think it even more appropriate to disregard such
allegations in the context of the qualified immunity
and excessive force issues raised by this case, where
the Supreme Court has directed us to judge the “reasonableness at the moment” of the officer’s actions not
from the plaintiff’s perspective, but instead “from the
perspective of a reasonable officer on the scene,” who
was operating without the “20/20 vision of hindsight.”
Graham, 490 U.S. at 396, 109 S. Ct. at 1872.
In any event, the allegations of the complaint are
lacking in allegations of actual facts18 that paint a scenario that so clearly and obviously presented such

18

Contrary to the dissent’s suggestion, we do not discount the
complaint’s conclusory allegation that the dog presented no
threat because we accept instead Vickers’s conclusory allegation
that he did feel the need to subdue the dog. Rather, we discount
the complaint’s allegation because it is conclusory. There are no
allegations of actual fact indicating that the dog was non-threatening. In contrast to Corbitt’s conclusory allegations of no threat
and no justification, we suggest hypothetical illustrations of allegations of actual fact which Corbitt might have alleged depending upon what the actual facts were. For example, Corbitt might
have alleged that the dog was a small and non-aggressive breed,
like a toy poodle, or, if it was a breed known for aggression, that
the dog was walking slowly towards its owners and not barking
at all.

34a

danger to SDC that every objectively reasonable officer confronted with the situation Vickers encountered would have known, in light of “the standards set
forth in Graham and our own case law,” Lee, 284 F.3d
at 1199, and in the ten seconds allegedly available,
that a shot at the dog would violate the Fourth
Amendment. Thus, we cannot conclude that the instant allegations rise to that rare level of conduct that
“lies so obviously at the very core of what the Fourth
Amendment prohibits that the unlawfulness of the
conduct was readily apparent to the official, notwithstanding the lack of case law.” Id.; see also Mercado,
407 F.3d at 1159 (noting that, under the third method,
the conduct at issue must rise to a level that “so obviously violates [the] constitution that prior case law is
unnecessary”). As a result, we also cannot conclude
that Corbitt has overcome the high legal threshold
placed on plaintiffs who seek to overcome an officer’s
qualified immunity defense on the basis of the third
method on which the dissent focused. That this complaint fails to surmount that high legal threshold is
especially apparent in light of the considerable case
law indicating that a Fourth Amendment violation

We also cannot agree with our dissenting colleague that the
actual facts alleged warrant the inference that the dog “was surrounded by children.” The complaint does not contain allegations
of actual fact to support the dissent’s assertion that the dog was
surrounded by children when Vickers fired at it. To the extent
that the allegations focus on the relative locations of the dog to
other children, they allege only that Vickers “discharged his firearm in the immediate vicinity of several innocent minor children
and bystanders,” and “a large number of innocent bystanders,
mostly children in the immediate area.” The dissent’s inference
that Vickers shot “into a group of children” overstates the factual
allegations contained in Corbitt’s complaint.

35a

must involve official action that intentionally targets
the plaintiff. Not only does that case law strongly indicate it is not clearly established that the accidental
effects of official actions targeting others gives rise to
a Fourth Amendment violation, it even suggests that
such actions may not even constitute a Fourth
Amendment violation in the first place. The relevant
question is not whether a reasonable officer would
have refrained from shooting the dog. Instead, the relevant question is whether every reasonable officer
would have inevitably refused to do so in light of the
Fourth Amendment standards established by Graham and our own case law. Our answer to that relevant question is in the negative.
Accordingly, Vickers’s qualified immunity defense
must prevail in the absence of a materially similar
case or a governing legal principle or binding case that
applies with obvious clarity to the facts of this case.
III. CONCLUSION
In conclusion, we hold that Vickers is entitled to
qualified immunity because, at the time of the incident giving rise to this appeal, there was no clearly
established law making it apparent to any reasonable
officer in Vickers’s shoes that his actions in firing at
the dog and accidentally shooting SDC would violate
the Fourth Amendment. Because we find no violation
of a clearly established right, we need not reach the
other qualified immunity question of whether a constitutional violation occurred in the first place. This
opinion expressly takes no position as to that question. The order of the district court denying Vickers’s
motion to dismiss is hereby reversed, and the case is
remanded to the district court with instructions to dismiss the action against Vickers.
REVERSED and REMANDED.

36a

WILSON, Circuit Judge, dissenting:
The majority accurately points out that qualified
immunity protects “all but the plainly incompetent.”
Maj. Op. at 10 (quoting Malley v. Briggs, 475 U.S. 335,
341 (1986)). Because no competent officer would fire
his weapon in the direction of a nonthreatening pet
while that pet was surrounded by children, qualified
immunity should not protect Officer Vickers. Therefore, I dissent.
I.
On July 10, 2014, several officers, including Deputy Sheriff Michael Vickers, initiated a search to locate and apprehend a criminal suspect, Christopher
Barnett.1 The search led them to Amy Corbitt’s property after Barnett, “whom [plaintiffs] ha[d] never
met,” “wandered into the area.” Barnett, Damion
Steward, and six children—including Corbitt’s tenyear-old child S.D.C., and two children under the age
of three—were on the property’s front yard. The officers detained Barnett and ordered everyone to get on
the ground. An unidentified officer handcuffed Steward and held a gun against his back. The detained
children “were [also] held at gun point, each having
an officer forcefully shove the barrel of a loaded gun
into their backs.”
While Barnett, Damion, and the children were detained on the lawn, Vickers spotted the Corbitt family

1

The summary of the facts is based on the allegations made in
the Complaint. See Sebastian v. Ortiz, 918 F.3d 1301, 1307 (11th
Cir. 2019) (noting that, at the motion to dismiss stage, “[w]e are
required to accept all allegations in the complaint as true and
draw all reasonable inferences in the plaintiff’s favor”).

37a

pet, a dog named Bruce. Although no one “appear[ed]
to be threatened by [Bruce’s] presence,” Vickers attempted to shoot the dog. He missed, and Bruce retreated under the Corbitt’s residence. Roughly ten
seconds later, Bruce reemerged and was “approaching
his owners” on the yard. Vickers fired another shot,
again missing the pet. The errant bullet struck S.D.C.
behind the knee as the child lay in a “face down position on the ground at the request of defendants.” Importantly, S.D.C. was “readily viewable” a mere eighteen inches from Vickers at the time the shot was fired,
and “[o]ther minor children were [ ] within only a few
feet of [ ] Vickers.” As a result of the bullet wound,
S.D.C. suffered severe physical pain and mental
trauma.
II.
To overcome a qualified immunity defense, the
plaintiff must (1) “establish that the defendant violated a constitutional right” and (2) demonstrate that
the violated right was “clearly established.” Griffin Indus., Inc. v. Irvin, 496 F.3d 1189, 1199–1200 (11th Cir.
2007). I agree with the majority’s determination that
Corbitt satisfied the first requirement. See Maj. Op. at
14–18. I disagree, however, with the majority’s conclusion that Corbitt failed to demonstrate that Vickers
violated a “clearly established” constitutional right.
We have identified three ways a plaintiff can show
that a right was clearly established at the time of the
defendant’s action. First, she can “show that a materially similar case has already been decided.” Mercado
v. City of Orlando, 407 F.3d 1152, 1159 (11th Cir.
2005). Second, she can “show that a broader, clearly
established principle should control the novel facts” of
a particular situation. Id. (citing Hope v. Pelzer, 536

38a

U.S. 730, 741 (2002)). Third, she can show that her
case “fits within the exception of conduct which so obviously violates [the] constitution that prior case law
is unnecessary.” Id.; see also Lee v. Ferraro, 284 F.3d
1188, 1199 (11th Cir. 2002) (noting that, to show that
a right is “clearly established,” plaintiffs may show
“that the official’s conduct lies so obviously at the very
core of what the Fourth Amendment prohibits that
the unlawfulness of the conduct was readily apparent
to the official, notwithstanding the lack of case law.”
(citation omitted)). I believe the instant case falls
within the third category.
Under this third recognized category, a plaintiff in
an excessive force case can overcome an officer’s qualified immunity defense “only if the standards set forth
in Graham and our own case law inevitably lead every
reasonable officer in [the defendant’s] position to conclude the force was unlawful.” Lee, 284 F.3d at 1199
(alteration in original) (citation and internal quotation marks omitted). In Graham v. Connor, the Supreme Court held that the reasonableness analysis
“requires careful attention to the facts and circumstances of each particular case,” including the severity
of the crime at issue, the safety interests of officers
and others, and any risk of violence or flight by a suspect. 490 U.S. 286, 396 (1989) (citation omitted).
Consider the present facts and circumstances: officers arrived at a home and found the subject of their
search. At gunpoint, the officers ordered the suspect
and all persons in the area—including six children—
to the ground. Everyone complied. A nonthreatening
family pet was present on the scene; there is nothing
to suggest that this pet acted with hostility or threatened the safety of anyone—including the officers.
With all the children and the suspect still lying on the
ground pursuant to the officers’ commands, Officer

39a

Vickers shot at the family pet. He missed. He waited.
He shot again. He missed again, instead striking a
child who had been—at all times—lying within arm’s
reach of the officer.
This conduct—discharging a lethal weapon at a
nonthreatening pet that was surrounded by children2—is plainly unreasonable. The nonthreatening
nature of the pet is crucial to this conclusion.3 We have

2

The majority maintains that the Complaint does not “contain
allegations of actual fact to support the dissent’s assertion that
the dog was surrounded by children when Vickers fired at it.”
Maj. Op. at 37 n.18. But there are allegations in the Complaint
that, considered together, lead to the reasonable inference that
the dog was surrounded by children at the time Officer Vickers
fired the shot. See Sebastian, 918 F.3d at 1307 (noting that, at
the motion to dismiss stage, we must draw all reasonable inferences in favor of the nonmoving party). Specifically, the Complaint alleges that the dog was “approaching his owners,” including S.D.C., on the yard when Officer Vickers fired. It also alleges
that S.D.C. “was approximately eighteen inches from Defendant
Vickers” and “[o]ther minor children were [ ] within only a few
feet of Defendant Vickers” when Officer Vickers fired. Finally,
the Complaint alleges that Officer Vickers fired a shot at the dog
but instead hit S.D.C. Based on these three allegations—(1) that
the dog was approaching S.D.C., (2) that Officer Vickers was a
few feet from S.D.C. and the other children, and (3) that Officer
Vickers fired a shot at the dog, but instead struck a child—we
can, and should, reasonably infer that the dog and the children
were closely situated.
3
The majority declined to accept Corbitt’s allegations that the
dog was nonthreatening, reasoning that the allegations were
“conclusory.” Maj. Op. at 37. I disagree with such a characterization. At this stage, we must take plaintiff’s allegations as true.
Sebastian, 918 F.3d at 1307; St. George v. Pinellas County, 285
F.3d 1334, 1337 (11th Cir. 2002) (“While there may be a dispute
as to whether the alleged facts are the actual facts, in reviewing

40a

consistently denied qualified immunity when the defendant-officer exhibited excessive force in the face of
no apparent threat. See cf. Saunders v. Duke, 706 F.3d
1262, 1265 (11th Cir. 2014) (“We have repeatedly
ruled that a police officer violates the Fourth Amendment, and is denied qualified immunity, if he or she
uses gratuitous and excessive force against a suspect
who is under control, not resisting, and obeying commands.”); see, e.g., Slicker v. Jackson, 215 F.3d 1225,
1227 (11th Cir. 2000) (denying qualified immunity to
officer who arrested plaintiff, placed him in handcuffs
and then, after he had been fully secured, slammed
his head into the pavement); Priester v. City of Riviera
Beach, Fla., 208 F.3d 919, 926–27 (11th Cir. 2000)
(denying qualified immunity to officer who allowed police dog to attack arrestee who was already subdued
and lying on the ground); Smith v. Mattox, 127 F.3d

the grant of a motion to dismiss, we are required to accept the
allegations in the complaint as true.”). We are therefore obligated
to accept that the dog “posed no threat,” that “[no]one appear[ed]
to be threatened by its presence,” and that it was merely “approaching his owners” at the time Officer Vickers fired. Instead,
the majority appears to credit Officer Vickers’ own conclusory account—that he shot the dog “because it was approaching him,
the officers, and the detained bystanders in a manner that led
him to conclude that he needed to subdue it.” See Maj. Op. at 37
(concluding that some officers may find it reasonable to subdue
a dog “roaming freely at the scene of an active arrest”). Neither
Officer Vickers nor the majority elaborates on the dog’s behavior
or explains how its behavior was so outrageous as to warrant
shooting into a group of children. And even if such an explanation
existed, we are required to accept Corbitt’s allegations as true. It
is not for us to weigh the likelihood of either account. That is a
job for the jury.

41a

1416, 418–20 (11th Cir. 1997) (denying qualified immunity to officer who broke plaintiff’s arm after plaintiff “docilely submitted” to officer’s request to “get
down”). It is also relevant that Officer Vickers was a
mere foot and a half from S.D.C. and was only a few
feet from several other children. Nonetheless, facing
no apparent threat, Officer Vickers chose to fire his
lethal weapon in the direction of these children.4 No
reasonable officer would engage in such recklessness
and no reasonable officer would think such recklessness was lawful. Therefore, I agree with the district
court that Officer Vickers should not be entitled to
qualified immunity. Lee, 284 F.3d at 1199.
I respectfully dissent.

4

Officer Vickers emphasizes that he intended to shoot the dog
and only accidentally struck S.D.C. He argues that such an inadvertent injury cannot be deemed a result of “excessive force.” I do
not dispute that the shooting of S.D.C. was accidental. I maintain
that Officer Vickers’ intentional action—shooting at a dog that
was surrounded by children—was unreasonable.

42a
APPENDIX B

In the United States District Court
for the Southern District of Georgia
Waycross Division
AMY CORBITT, individually
and as parent and natural
Guardian of SDC; JERRY
RICH, individually; ELIZABETH BOWEN, as parent and
natural guardian of AMB;
TONYA JOHNSON, as parent
and natural guardian of ERA;
DAMION STEWART, individually and as parent and natural
guardian of JDS and as parent
and natural guardian of MS

NO. 5:16-CV-51

Plaintiffs,
v.
DOYLE WOOTEN, individually;
and MICHAEL VICKERS,
individually,
Defendants.
ORDER

Before the Court is Defendants’ Motion to Dismiss
(Dkt. No. 4) pursuant to Federal Rule of Civil Procedure 12(b)(6) for failure to state a claim upon which
relief can be granted. This Motion has been fully
briefed and orally argued, and is now ripe for review.
For the following reasons, the Motion to Dismiss is
GRANTED in part and DENIED in part.

43a
BACKGROUND

At this stage of the case, the facts are taken from
the Complaint and assumed to be true pursuant to
Federal Rule of Civil Procedure 12(b)(6). On July 10,
2014, Defendant Michael Vickers (“Vickers”) and
other officers of the Coffee County Sheriff’s Department and the Georgia Bureau of Investigation participated in an operation to apprehend criminal suspect
Christopher Barnett. Dkt. No. 1 ¶ 23. They entered
Plaintiff Amy Corbitt’s (“Corbitt”) property at 145
Burton Road, Lot 19 and ordered all persons to get
down on the ground. Id. ¶ 24. Inside the property were
Plaintiff Corbitt and non-party minors JVR and ST.
Id. Outside the property were Plaintiff Stewart and
minor Plaintiffs Rich, JDS, MS, SDC, AMB, and ERA.
Id. Officers handcuffed Plaintiff Stewart and placed
the barrel of a gun in his back in the presence of his
two children under the age of three. Id. Those children
roamed the adjacent street, screaming and crying. Id.
at ¶ 25. The remaining minors were each held at gunpoint, lying on the ground, when Defendant Vickers
intentionally fired two shots at the family pet named
“Bruce.” Id. at ¶ 27, 28. The first shot missed. Id. at ¶
28. The second shot missed the pet and hit ten-yearold SDC in the back of his right knee. Id. at ¶¶ 28, 32.
None of the Plaintiffs had ever met the criminal
suspect Christopher Barnett. Id. ¶ 23. All of the plaintiffs followed Defendant Vickers’s orders. Id. ¶ 32. The
complaint alleges that no officer at the scene was required to discharge a firearm. Id. ¶ 29. At the time he
fired two bullets at the pet, Vickers was armed with a
gun, a Taser, and pepper spray. Id. ¶ 41. Before Vickers shot at Bruce, neither he nor any other agent attempted to restrain the animal, whether directly or

44a

otherwise. Id. ¶ 28. Vickers was only eighteen inches
from SDC when he shot the child. Id. ¶ 29.
Tests run at Coffee Regional Medical Center and
the University Medical Center in Savannah, GA confirmed multiple bullet fragments throughout the area
of SDC’s wound, and, at the time the Complaint was
filed, SDC was under evaluation by an orthopedic surgeon for the removal of the bullet fragments. Id. ¶ 3334.
Eight Plaintiffs filed suit, asserting various state
and federal claims against the County, the sheriff, and
Vickers. The only remaining claims are by all Plaintiffs against Vickers in his individual capacity and by
Plaintiffs ERA, Stewart, JDS, and MS against Wooten
in his individual capacity.1
LEGAL STANDARD

Federal Rule of Civil Procedure 8(a) requires that
a plaintiff’s complaint contain “a short and plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a). In order to state a
claim for relief, a plaintiff’s complaint must include
“enough facts to state a claim to relief that is plausible
on its face.” Bell Atlantic Corp. v. Twombly, 550 U.S.
544, 570 (2007). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the

1

At an oral hearing on this Motion on August 31, 2017, Plaintiff
voluntarily dismissed claims against Coffee County and Vickers
and Wooten in their official capacities, as well as the Equal Protection claim and all state law claims. The most recent filing of
Plaintiffs Corbitt, SDC, Rich, and AMB also makes clear that
those Plaintiffs have dismissed their claims against Wooten in
his individual capacity. The claims against Wooten in his individual capacity brought by EEW, Stewart, JDS, and MS remain.

45a

court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009). The Court accepts
the allegations in the complaint as true and draws all
reasonable inferences in favor of the plaintiff. Ray v.
Spirit Airlines, Inc., 836 F.3d 1340, 1347 (11th Cir.
2016). However, the Court does not accept as true
threadbare recitations of the elements of the claim
and disregards legal conclusions unsupported by factual allegations. Iqbal, 556 U.S. at 678-79. At a minimum, a complaint should “contain either direct or inferential allegations respecting all the material elements necessary to sustain a recovery under some viable legal theory.” Fin. Sec. Assurance, Inc. v. Stephens, Inc., 500 F.3d 1276, 1282-83 (11th Cir. 2007)
(per curiam) (quoting Roe v. Aware Woman Ctr. For
Choice, Inc., 253 F.3d 678, 683 (11th Cir. 2001)).
DISCUSSION

Plaintiffs have brought 42 U.S.C. § 1983 claims
asserting that Vickers and Wooten2 deprived them of
their constitutional rights to be free from excessive
force. In response, Vickers and Wooten have raised
the defense of qualified immunity and argued that
Plaintiffs have failed to state claims upon which relief
may be granted.
The Supreme Court has held that “all claims that
law enforcement officers have used excessive force—
deadly or not—in the course of [a] ‘seizure’ of a free
citizen should be analyzed under the Fourth Amendment and its ‘reasonableness’ standard.” Graham v.

2

Only Plaintiffs ERA, Stewart, JDS, and MS have remaining
claims against Wooten.

46a

Connor, 490 U.S. 386, 394 (1989). The Fourth Amendment provides that “[t]he right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not
be violated.” U.S. Const, amend. IV. “To assert a
Fourth Amendment claim based on the use of excessive force, the plaintiffs must allege (1) that a seizure
occurred and (2) that the force used to effect the seizure was unreasonable.” Troupe v. Sarasota Cnty.,
Fla., 419 F.3d 1160, 1166 (11th Cir. 2005).
Vickers has raised the defense of qualified immunity. “The defense of qualified immunity requires
courts to enter judgment in favor of a government employee unless the employee’s conduct violates clearly
established statutory or constitutional rights of which
a reasonable person would have known.” Morse v.
Frederick, 551 U.S. 393, 429 (2007). “[T]he burden is
on the plaintiff to show that, when the defendant
acted, the law established the contours of a right so
clearly that a reasonable official would have understood his acts were unlawful.” Post v. City of Fort
Lauderdale, 7 F.3d 1552, 1557 (11th Cir. 1993).
“‘Once the affirmative defense of qualified immunity is advanced . . ., [u]nless the plaintiff’s allegations
state a claim of violation of clearly established law, a
defendant pleading qualified immunity is entitled to
dismissal before the commencement of discovery.’”
Cottone v. Jenne, 326 F.3d 1352, 1357 (11th Cir. 2003)
(quoting Marsh v. Butler Cnty., 268 F.3d 1014, 1022
(11th Cir. 2001) (en banc)). ‘“Absent such allegations,
‘[i]t is . . . appropriate for a district court to grant the
defense of qualified immunity at the motion to dismiss
stage.’” Id. (quoting Gonzalez v. Reno, 325 F.3d 1228,
at *3 (11th Cir. 2003)).

47a

The defense of qualified immunity presents a twostep inquiry. First, the government official must prove
that he was acting within his discretionary authority.
Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002).
Then, the burden shifts to the plaintiff to show that
the defendant’s actions violated a constitutional right,
and that such right was clearly established. Id. Vickers argues throughout his brief that no Fourth
Amendment violation occurred because he did not intend to shoot SDC. He does not articulate whether he
means that no seizure occurred or that the force was
not excessive, so the Court will address the argument
under both prongs.
A. Seizure
A Fourth Amendment seizure occurs “when there
is a governmental termination of freedom of movement through means intentionally applied.” Id. (quoting Brower v. Cnty. of Inyo, 489 U.S. 593, 597 (1989)
(emphasis in original)). A seizure is an “intentional acquisition of physical control” by a government actor.
Brower, 489 U.S. at 596.
A person is “‘seized’ within the meaning of the
Fourth Amendment only if, in view of all of the circumstances surrounding the incident, a reasonable
person would have believed that he was not free to
leave.” United States v. Mendenhall, 446 U.S. 544, 554
(1980). “Examples of circumstances that might indicate a seizure, even where the person did not attempt
to leave, would be the threatening presence of several
officers [and] the display of weapons by an officer….”
Id. “A seizure occurs even when an unintended person
or thing is the object of the detention or taking … but
the detention or taking itself must be willful.” Brower,
189 U.S. at 596.

48a

The Supreme Court applied these rules in Brewer.
There, the plaintiff was killed when the stolen car he
had been driving at high speeds to elude police
crashed into a police roadblock. Id. at 594. The Court
of Appeals had held that no seizure occurred because
his freedom of movement was never restrained prior
to his decision not to stop at the roadblock. Id. at 595.
That would stretch the definition of seizure too thin,
the Supreme Court reasoned. Id. at 598-99. The police
set up a roadblock to stop the plaintiff. Id. at 599. The
roadblock stopped the plaintiff. Id. It did not matter
that they intended the roadblock to stop him by preventing him from driving down a particular road and
it in fact stopped him by killing him when he crashed
into it. Id.
The Eleventh Circuit has also applied these rules
in defining a seizure in the context of an excessive
force claim. In Vaughan v. Cox, the plaintiff asserting
a Fourth Amendment excessive force claim against
the officer who shot him was a passenger in a truck.
343 F.3d 1323, 1328 (11th Cir. 2003). The officer intended to shoot the truck, thereby disabling it and
ramming it off the road, but he ultimately hit the
plaintiff. Id. at 1327. Because the officer had not intended to shoot the plaintiff, the district court held
that the plaintiff had not suffered a Fourth Amendment seizure. Id. at 1328. The Eleventh Circuit reversed, explaining that because the plaintiff was hit
by a bullet that was meant to and did stop him, he was
subjected to a Fourth Amendment seizure. Id. at
1328-29. In other words, a seizure occurs when an officer intentionally sets into motion an instrumentality
that has the effect of restricting the plaintiff’s movement. When an officer intends to stop or seize a person, and does so, it does not matter that he does so in
a way other than the way in which he intended.

49a

1. Corbitt3, SDC, AMB, ERA, and Rich v. Vickers
Here, Plaintiffs have alleged that Vickers seized
SDC, AMB, ERA, and Rich—the minor Plaintiffs held
at gunpoint outside the property. Plaintiffs SDC,
Rich, AMB, and ERA claim that their Fourth Amendment seizures were effected by the placement of gun
barrels in their backs.
The Complaint alleges that Vickers (and fellow officers) demanded the children get down on the ground
with the barrel of loaded guns shoved into their backs.
Dkt. No. ¶¶ 24, 27. It further alleges that while they
were lying on the ground obeying Vickers, Vickers discharged his firearm twice. Id. ¶ 28. This would cause
reasonable people to believe they were “not free to
leave.” Mendenhall, 446 U.S. at 554. It is exactly the
type of situation that Mendenhall prescribes as constituting a seizure: “the threatening presence of several officers [and] the display of weapons by an officer.” Id. These allegations show that Vickers effectuated a seizure even before firing his weapon. But he
did fire his weapon. And even though that satisfies the
first element of a Fourth Amendment violation, the
Court will now address Vickers’s argument that unintentionally shooting SDC means no seizure occurred.
No Eleventh Circuit case directly addresses how
to handle the case where an officer shoots someone he
was not aiming to hit. Regarding the application of the
Fourth Amendment to an accidental discharge of a

3

Corbitt’s claim is derivative of her minor child (SDC)’s claim,
and they progress or fall together.

50a

weapon, the circuits are split, and the Eleventh Circuit has not been faced with the question.4
The Second Circuit declared that the Fourth
Amendment only applies to shootings designed for
“the purpose of seizing” the suspect. Dodd v. City of
Norwich, 827 F.2d 1, 7 (2d Cir. 1987), cert denied, 484
U.S. 1007 (1988). It explained that “[i]t makes little
sense to apply a standard of reasonableness to an accident” because that would extend liability to negligence claims. Id. at 7-8. That case dealt with the inadvertent shooting of an already apprehended burglar. Id. On the other hand, the Sixth Circuit in Pleasant v. Zamieski held that the use of force should be
examined under the reasonableness standard even if
the seizure was negligent rather than intentional—
that is, where the shooting was undisputably accidental and not the result of the deliberate use of force.
895 F.2d 272, 276-77 (6th Cir. 1990).
At least one district court in the Eleventh Circuit
has chosen to follow the second line of reasoning.5 The
Northern District of Georgia held in Speight v. Griggs
that the accidental discharge of a firearm resulting in
an unintentional shooting during the course of an arrest may constitute excessive force under the Fourth
Amendment if the officer’s course of conduct preceding

4

This is not an accidental firing case because the weapon was
intentionally fired. Instead, this is an accidental shooting case.
That is, the weapon was fired in order to shoot the pet. The shot
hit the child accidentally. Vickers inaccurately defines the constitutional right at issue as the right to be free from the accidental application of force. Still, it is worth examining the circuit
split on that analogous issue.
5
The Court finds no courts in this Circuit that have chosen to
follow the first line of reasoning.

51a

the shooting is unreasonable under the circumstances. 13 F. Supp. 3d 1298, 1319 (N.D. Ga. 2013),
vacated on other grounds, 579 Fed. Appx. 757 (11th
Cir. 2014). In reaching its decision, the Speight court
noted the Supreme Court’s reasoning in Brower that
the line defining a seizure cannot be drawn too fine
lest one be determined not seized “‘who has been
stopped by the accidental discharge of a gun with
which he was meant only to be bludgeoned.’” Id. at
1320 (quoting Brower, 489 U.S. at 598).
In the present case, Vickers had ordered Plaintiffs
to the ground at gunpoint before any “accident” occurred. A reasonable inference from the allegations in
the Complaint, drawn in Plaintiffs’ favor for the purpose of this Motion, is that Vickers fired his weapon
at the animal in order to keep control of SDC, AMB,
ERA, and Rich – that is, in order to continue their seizure. In other words, a jury could find that Vickers intended to shoot the animal in order to maintain his
control of the situation and keep Plaintiffs from escaping while the animal distracted Plaintiffs. And his action had the effect of continuing to seize the Plaintiffs
– they did not budge when he fired his gun. Because
Vickers shot his gun for the purpose of carrying out
the seizure, and a seizure occurred, Vickers’s not intending to shoot SDC does not negate that seizure.
Just as in Vaughan, while the result of discharging
the weapon may be an accident, the actual discharge
was intentional. And the force he exerted intentionally is certainly capable of excess.
Vickers asks the Court to follow the decision in
Dahm v. City of Miamisburq, 1997 WL 1764770 (S.D.
Ohio 1997). At first blush, the facts of that case are
directly analogous to the facts in this case—while attempting to arrest the plaintiff, an officer fired toward

52a

the plaintiff’s dog but actually hit the plaintiff himself. Id. at *8. The court looked closely at the Supreme
Court’s direction in Brower and noted that a jury could
find that the officer shot the advancing dog in order to
seize the plaintiff. Id. A closer look at the facts: the
officer arrived at the plaintiff’s home to execute a
search warrant. Id. at *4. As he entered the front door,
the first thing he saw was the plaintiff’s dog charging
at him. Id. at *5. He shot at the dog but missed and
hit the plaintiff. Id. The Court concluded that the situation was too attenuated to constitute a Fourth
Amendment violation, that the plaintiff was not
“stopped by the very instrumentality set in motion or
put in place in order to achieve that result.” Id. at *9.
It reasoned that even if the officer had successfully
shot the dog as he intended, that action would not
have seized the plaintiff because it would merely have
allowed the officers to safely enter the residence. Id.
Those facts are distinguishable from the ones
here. While the officer in Dahm had not come into contact with the plaintiff before shooting the dog, Vickers
had already ordered SDC to the ground at gunpoint.
While shooting the dog in Dahm would only have eliminated one barrier in locating and seizing the plaintiff,
shooting the pet here, according to the allegations in
the Complaint, would have eliminated the only potential barrier to Vickers’ complete control of the Plaintiffs. In other words, the officer in Dahm did not shoot
his weapon at the dog in order to restrict the plaintiff’s
movement. Shooting the dog would have simply allowed him to later take steps to seize the plaintiff, albeit only moments later. Here, in contrast, a reasonable jury could conclude that Vickers shot at Bruce in
order to prevent any of the Plaintiffs from escaping
from his control. Shooting Bruce would have ensured
that. Therefore, the decision in Dahm does not change

53a

the conclusion that a jury could find that Vickers shot
toward Bruce in furtherance of the seizure of the
Plaintiffs.
2. Plaintiffs Stewart, JDS, MS
Plaintiff Stewart claims that his Fourth Amendment seizure was effected by the application of handcuffs. The problem with this claim is that the Complaint does not allege that Vickers himself handcuffed
Stewart, whether directly or by ordering another to do
so. It merely states that “Plaintiff Stewart was brutally handcuffed.” Id. ¶ 24. Without linking this action
to Vickers, no claim can be stated against him. Thus,
the Court need not analyze whether the use of handcuffs constitutes a seizure and whether that alleged
seizure was reasonable. Stewart’s claim against Vickers must be dismissed.
The claims against Vickers brought by Stewart’s
minor children, JDS and MS, fail for the same reason.
The Complaint makes no allegations that Vickers
himself caused any type of injury to JDS and MS. The
only injury occurred as a result of their father’s handcuffing (Id. ¶ 25) in which Vickers played no part.
These claims are also dismissed.
B. Qualified Immunity
Here, it is clear that Vickers was acting under his
discretionary authority. Actions fall under a government official’s discretionary function when they “‘are
of a type that f[a]ll within the employee’s job responsibilities.’” Crosby v. Monroe Cnty., 394 F.3d 1328,
1332 (11th Cir. 2004) (quoting Holloman ex rel. Holloman v. Harland, 370 F.3d 1252, 1265 (11th Cir.
2004)). And, “making an arrest is within the official
responsibilities of a sheriff’s deputy.” Vickers was a
sheriff’s deputy performing an arrest. Dkt. No. 1 ¶¶
14, 23.

54a

Second, the Court must decide whether Vickers
violated a clearly established constitutional right. “It
is clearly established that the use of excessive force in
carrying out an arrest constitutes a violation of the
Fourth Amendment.” Thornton v. City of Macon, 132
F.3d 1395, 1400 (11th Cir. 1998). Thus, Vickers is not
entitled to qualified immunity if he used excessive
force in firing his weapon.
No constitutional violation can be shown where an
official’s actions are “‘objectively reasonable’—that is,
if a reasonable officer in the same situation would
have believed that the force used was not excessive.”
Id. at 1400 (citing Anderson v. Creighton, 483 U.S. 635
(1987)). Sometimes, “no factually particularized,
preexisting case law [is] necessary for it to be very obvious to every objectively reasonable officer facing [the
defendant’s] situation that [his] conduct … violated
[the plaintiff’s] right to be free of the excessive use of
force.” Vinyard v. Wilson, 311 F.3d 1340, 1355 (11th
Cir. 2002).
In Thornton, the Eleventh Circuit concluded that
the use of any force was excessive where the plaintiffs
were not suspected of having committed a serious
crime, posed no threat to anyone, and did not actively
resist the officers. 132 F.3d 1998.
1. SDC v. Vickers
The Court turns again to Vaughan v. Cox. While
it is not analogous in all aspects, it is a case where the
officer shot an individual he was not aiming to hit, and
the officer had intentionally seized the plaintiff and
intentionally fired his weapon. There, the officer
aimed to hit either the driver of a truck or the truck
itself. 343 F.3d at 1327. He hit the passenger instead.
Id. That the officer shot a person he was not aiming to
hit did not stop the Eleventh Circuit from conducting

55a

an excessive force analysis. In so doing, the Eleventh
Circuit was examining the excessiveness of the force
that the officer had intentionally applied. It did not
ask whether shooting the passenger was excessive on
its own but whether it was excessive even for the officer to shoot according to his plan. The Eleventh Circuit examined the excessiveness of the force exerted
in Cooper v. Rutherford in a similar way. 503 Fed.
Appx. 672 (11th Cir. 2012). There, the plaintiffs were
seriously injured when an armed bank robber attempted to elude the police by attempting to steal the
car in which they were riding. Id. at 673. The officers
fired their guns at the suspect to prevent him from escaping with the hostages, but he hit the plaintiffs instead. Id. The court examined the excessiveness of the
force as though it was exerted against the suspect the
officer aimed to hit and held that it was not clearly
established that the officer’s actions in firing 24 shots
were unreasonable. Id. at 676.
Here, though Vickers did not intend to exert any
force against SDC, he did intend to exert force against
the animal. This Court must therefore analyze
whether or not that exertion of force was excessive or
objectively reasonable.6
“The touchstone for reasonableness in [animal]
shooting cases is typically officer safety.” Schutt v.
Lewis, 2014 WL 3908187, *3 (M.D. Fla. 2014). In
Schutt, the officer reasonably shot a dog that was rapidly approaching him and disobeying its owner’s order. Id. Here, in contrast, the Complaint alleges that
Vickers discharged his firearm “without necessity or

6

At this point, the record does not indicate what kind of animal
the pet was.

56a

any immediate threat or cause.” Dkt. No. 1 ¶ 28. It
alleges further that Vickers never attempted to restrain the animal or ask anyone else to do so. Id. The
first shot occurred “[w]hile the children were lying on
the ground obeying the orders of Defendant Vickers,”
and the second shot occurred as the animal “was approaching his owners.” Id. No one besides the officers
possessed firearms, “nor did anyone appear to be
threatened by [Bruce’s] presence.” Id. ¶ 29. SDC “‘offered no hindrance or obstruction to the efforts of Defendant Vickers and others during the apprehension
of Cristopher [sic] Barnett.” Id. ¶ 32. Specifically, no
allegations suggest that Vickers was unsafe in any
way or that Bruce exhibited any signs of aggression.
It may well be that the record will develop in a
much different fashion. Facts remain to be developed
including details about the pet, its history, appearance, behavior, relationship to Plaintiffs, etc. At this
stage, the complaint makes sufficient allegations to
proceed. Therefore, Vickers’s Motion to Dismiss SDCs
claim is denied at this time. This does not preclude
Vickers from raising the defense of qualified immunity at a later stage of the case.
2. Other Plaintiffs v. Vickers
Even assuming the truth of the Complaint, the
force that Vickers exerted against Plaintiffs Rich,
AMB, and ERA was reasonable. The only force that he
exerted toward them was the discharge of a weapon
aimed at Bruce that hit SDC. The Complaint does not
allege that Vickers even pointed a gun at any of these
Plaintiffs.7 Thus, the Complaint provides an even

7

‘The Complaint makes other allegations that Plaintiffs “were
held at gun point” with an “officer forcefully shov[ing] the barrel

57a

weaker case of excessive force than the one deemed
reasonable in Croom v. Balkwill. 645 F.3d 1240 (11th
Cir. 2011).
There, the deputy pushed the elderly plaintiff,
also a witness to an arrest, to the ground from her
squatting position and held her there with his leg for
ten minutes. Id. at 1252-53. The Eleventh Circuit affirmed summary judgment for the officer because no
constitutional violation had been shown where the
plaintiff was in the front yard of a house known by law
enforcement to be involved in the distribution of controlled substances. Id. The Court held that the officers
were authorized to exercise authority “by placing all
the occupants of the [p]remises on the ground for several minutes while securing the home and ensuring
there was no danger to the officers or the public.”
Here, the Complaint itself alleges that Vickers knew
the suspect was on the premises. Dkt. No. 1 ¶ 35-36.
Hence, he and the other officers were authorized to
place the bystanders on the ground for the duration of
the arrest.
3. ERA, Stewart, JDS, and MS v. Wooten
The claims of ERA, Stewart, JDS, and MS against
Wooten in his individual capacity are still asserted in
the case. However, they are due to be dismissed. Just
like Vickers, Wooten is entitled to qualified immunity
for claims against him in his individual capacity unless Plaintiffs can show that he violated a constitutional right, and that that right was clearly established. Lee v. Ferraro, 284 F.3d at 1158.

of a loaded gun into their backs,” but the Complaint does not allege that Vickers was the subject of these actions. Dkt. No. 1 ¶
27.

58a

According to the allegations in the complaint,
Wooten’s involvement with the incident giving rise to
this litigation is limited to his supervisory role as
Sheriff of Coffee County. Dkt. No. 1 ¶ 13. As Sheriff,
the complaint alleges, he was responsible for establishing customs, policies, and procedures to regulate
the conduct of agents and employees of the Coffee
County Sheriff Department and for ensuring that employees complied with the law. Id.
“The standard by which a supervisor is held liable
in [his] individual capacity for the actions of a subordinate is extremely rigorous.” Cottone, 326 F.3d 1352,
1360 (11th Cir. 2003) (quoting Gonzales v. Reno, 325
F.3d 1228, 1234 (11th Cir 2003)). “[S]upervisory liability under § 1983 occurs either when the supervisor
personally participates in the alleged unconstitutional conduct or when there is a causal connection
between the actions of a supervising official and the
alleged constitutional deprivation.” Cottone, 326 F.3d
at 1360. “The necessary causal connection can be established ‘when a history of widespread abuse puts
the responsible supervisor on notice of the need to correct the alleged deprivation, and he fails to do so.’” Id.
(quoting Gonzalez, 325 F.3d at 1234).
Here, this Court has already found that the constitutional rights of ERA, Stewart, JDS, and MS were
not violated. Wooten cannot be liable under § 1983 for
actions he supervised that do not constitute a constitutional violation. This Court need not consider
whether Plaintiffs sufficiently alleged a history of
widespread abuse that put a responsible supervisor on
notice of the need to correct a deprivation. Wooten
cannot be liable as a supervisor, and all remaining
claims against him are dismissed.

59a
CONCLUSION

Vickers’s Motion to Dismiss SDC’s § 1983 claim is
hereby DENIED. Vickers’s Motion to Dismiss all
other claims of the remaining Plaintiffs—Stewart,
Corbitt, Rich, AMB, ERA, JDS, and MS—is
GRANTED. Wooten’s Motion to Dismiss all remaining claims against him is hereby GRANTED.

SO ORDERED, this 5th day of December, 2017.

[handwritten signature]
HON. LISA GODBEY WOOD
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA

60a
APPENDIX C

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
WAYCROSS DIVISION
AMY CORBITT, Individually
and as Parent and Natural
Guardian of SDC, a Minor;
JERRY RICH, Individually;
ELIZABETH BOWEN, as Parent and Natural Guardian of
AMB, a Minor; and TONYA
JOHNSON, as Parent and Natural Guardian of ERA, a Minor;
DAMION STEWART, Individually and as Parent and Natural
Guardian of JDS, a Minor, and
as Parent and Natural Guardian of MS, a Minor;
Plaintiffs,
Case No. 5:16-cv-51

vs.
COFFEE COUNTY, Georgia;
DOYLE WOOTEN, Individually
and in his Official Capacity as
Sheriff of Coffee County; and
MICHAEL VICKERS, Individually and in his Official Capacity
as Deputy Sheriff of Coffee
County, Georgia;
Defendants.
COMPLAINT

61a

COME NOW, Plaintiffs in the above styled cause,
individually and as Parents and Natural Guardians,
and file this complaint against the above-named Defendants, showing this Honorable Court as follows:
I. INTRODUCTION

1.
This is a civil action seeking damages against Defendant Coffee County, Georgia, Defendant Doyle
Wooten, the Sheriff of Coffee County, Georgia, and
Defendant Michael Vickers, a Deputy Sheriff of Coffee
County, Georgia, all of which while acting under color
of law, jointly and severally deprived Plaintiffs and
Plaintiffs’ minor children of their rights secured by
the Constitution and laws of the United States, including the rights secured by the 4th and 14th Amendments to the Constitution of the United States, and as
a direct and proximate result of said deprivation Defendants’ negligence, gross negligence, and the wanton and willful indifference to the rights of Plaintiffs
individually and the rights of Plaintiffs’ minor children, caused the physical pain, suffering, mental anguish and ultimately the permanent restriction of minor SDC’s use of his right leg.
II. JURISDICTION AND VENUE

2.
This action is authorized and instituted pursuant
to 42 U.S.C. § 1988 and 42 U.S.C. § 1983 under the
4th and 14th Amendments to the United States Constitution. Jurisdiction is founded upon 28 U.S.C.

62a

§ 1331, 28 U.S.C. § 1343, and 28 U.S.C. § 1391, and
the aforementioned constitutional and statutory provisions. Plaintiffs bring this suit against each of the
above named defendants in both their individual and
official capacities, and against Coffee County, Georgia, as the employer of each of the individual Defendants, jointly and severally. This Court has pendant jurisdiction to hear the related claims set forth herein.
3.
As provided by 28 U.S.C. § 1391(b), venue is
proper in this judicial district. The Plaintiffs are citizens of the United States of America and residents of
Coffee County, Georgia. Plaintiffs reside in this judicial district. This is the district in which the misconduct that is the subject of this action took place and
one or more of the Defendants reside in this judicial
district.
4.
This action is brought within the applicable statute of limitations as provided by O.C.G.A. § 9-3-22 and
O.C.G.A. § 9-3-33.
5.
Each and every negligent, grossly negligent, wanton, willful, and reckless act of the Defendants as alleged herein below was an act by and under the color
and pretense of the statutes, ordinances, regulations,
law, customs and usage of Coffee County, Georgia,
and by virtue and under the authority of the Defendants’ employment with Coffee County, Georgia, and
with the Coffee County Sheriff’s Department.

63a
III. PARTIES

6.
Plaintiff Amy Corbitt, is a citizen and resident of
the City of Douglas, County of Coffee, State of Georgia
and brings this action for herself personally. Further,
said Plaintiff is the natural and legal mother of SDC,
a minor, and is qualified to act as the parent and natural guardian of SDC, therefore as such, said Plaintiff
also brings this action on behalf of said minor.
7.
Plaintiff Jerry Rich, is a citizen and resident of the
City of Douglas, County of Coffee, State of Georgia
and brings this action for himself personally. Further,
said Plaintiff was a minor at the time of the subject
matter incident, said Plaintiff’s natural and legal
mother is Plaintiff Amy Corbitt and he is the older
brother to SDC.
8.
Plaintiff Elizabeth Bowen, is a citizen and resident of the City of Douglas, County of Coffee, State of
Georgia and is the natural and legal mother of AMB,
a minor, and is qualified to act as the parent and natural guardian of AMB, therefore as such, said Plaintiff
brings this action on behalf of said minor.
9.
Plaintiff Tonya Johnson, is a citizen and resident
of the City of Douglas, County of Coffee, State of Geor-

64a

gia and is the natural and legal mother of ERA, a minor, and is qualified to act as the parent and natural
guardian of ERA, therefore as such, said Plaintiff
brings this action on behalf of said minor.
10.
Plaintiff Damion Stewart, is a citizen and resident
of the City of Douglas, County of Coffee, State of Georgia and brings this action for himself personally. Further, said Plaintiff is the natural and legal father of
two minor children, JDS, who was three years of age
at the time of the subject matter incident, and MS,
who was eighteen months of age at the time of the subject matter incident. Said Plaintiff is qualified to act
as the parent and natural guardian of both JDS and
MS, therefore as such, said Plaintiff also brings this
action on behalf of said minors.
11.
Defendant Coffee County, herein referred to as
“Defendant County”, was at all times material hereto
the governing body of Coffee County, Douglas, and
was responsible for the conduct of the agents and employees of Coffee County government and the Coffee
County Sheriff, including its operations, establishing
customs, policies and procedures to regulate the conduct of its agents and employees of the Coffee County
Sheriff and for ensuring that agents and employees of
the Coffee County Sheriff obey the laws of the State of
Georgia and of the United States of America.

65a

12.
Pursuant to Rule 4(j)(2), Fed. R. Civ. P., service of
process may be obtained upon Defendant County, created and established under the laws of the State of
Georgia, by service upon its’ Chief Executive Officer
which is Tony L. Paulk I., at 224 E. Bryan Street,
Douglas, Georgia 31533, and the Coffee County Administrator, Wesley Vickers, at 101 S. Peterson Avenue, Douglas, Georgia, 31533.
13.
Defendant Doyle Wooten, the Sheriff of Coffee
County, Georgia, herein referred to as “Defendant
Wooten”, at all times mentioned herein, Defendant
Wooten was the duly elected and acting Sheriff of Coffee County, Georgia, and is an employee of Coffee
County and is principally responsible for the operation of the Coffee County Deputy Sheriffs and as such
was the operating entity and was responsible for establishing customs, policies and procedures to regulate the conduct of agents and employees of the Coffee
County Sheriff Department, and for ensuring that
agents and employees of the Coffee County Sheriff Department obey the laws of the State of Georgia and of
the United States of America. Defendant Wooten can
be served at his office located at 825 Thompson Drive,
Douglas, Georgia, 31535.
14.
Defendant Michael Vickers, a Deputy Sheriff of
Coffee County, Georgia, herein referred to as “Defendant Vickers”, at all times mentioned herein, Defendant Vickers was a duly appointed and acting Deputy

66a

Sheriff of the Coffee County Sheriff’s Department in
Coffee County, Georgia, and as such was charged with
the responsibility of protecting the rights of citizens.
Defendant Vickers can be served at his office located
at 825 Thompson Drive, Douglas, Georgia, 31535.
15.
Defendant Wooten, his agents and employees, and
Defendant Coffee County, Georgia, acting through its
employees and officials, breached the duties arising
from and contained within O.C.G.A. § 34-7-20, where
they failed to exercise ordinary care in the employment of Defendant Vickers as a deputy sheriff and are
therefore liable for the deprivation of Plaintiffs’ rights
and the rights of their children.
16.
The Defendants herein named knowingly participated or acquiesced in, contributed, to, encouraged,
implicitly authorized or approved of the conduct described below individually and in their official capacities.
17.
The offenses described herein resulted from the
failure of Coffee County and its agents and employees
to employ qualified persons for positions of authority
and to properly or conscientiously train and supervise
the conduct of such persons after their employment
and or to promulgate appropriate operating policies
and procedures either formally or by custom to protect
the constitutional rights of the citizens of Coffee
County and the rights of Plaintiffs.

67a
IV. DEPRIVATION OF RIGHTS

The actions of Defendants resulted in the following:
a)

b)

c)

d)

The deprivation of Plaintiffs and their minor children’s right to be free from excessive use of force as guaranteed by the law
and the Constitution of the United States,
via the 4th and 14th Amendments;
The deprivation of Plaintiffs’ and their minor children’s right to be free from assault
and battery, as provided for by the laws of
the State of Georgia;
The deprivation of Plaintiffs’ and their minor children’s right to be secure in their
person, houses, papers, and effects, against
unreasonable searches and seizures as provided by the Constitution of the United
States via the 4th Amendment and as secured by the Constitution of the State of
Georgia Article I, Section I, Paragraph I,
the right to life, liberty, and property.
The deprivation of Plaintiffs and their minor children’s right to equal protection of
their person and property as secured by the
Constitution of the United States via the
14th Amendment and by the Constitution
of the State of Georgia Article I, Section I,
Paragraph II: “Protection to person and
property is the paramount duty of government and shall be impartial and complete.
No person shall be denied the equal protection of the laws.”

68a

e)

42 U.S.C. § 1983, 4th Amendment Violations under Color of Law.
IV. FACTS

18.
Defendants through their actions, or in some
cases through their failure to act in the face of a clear
duty to do so, have deprived Plaintiffs and Plaintiffs’
minor children of their rights under the 4th and 14th
Amendments to the United States Constitution provided under 42 U.S.C. § 1983, by acting under the
color of state law provision 18 U.S.C. § 242. Defendants are personally subject to the jurisdiction of this
Court under 42 U.S.C. § 1983 and 42 U.S.C. § 1988.
19.
Sovereign immunity does not apply pursuant to
O.C.G.A. § 36-33-1(b), which states that counties and
municipalities shall be liable “for neglect to perform
or improper or unskillful performance of their ministerial duties.”
20.
Although an Ante Litem Notice as provided by
O.C.G.A. § 36-33-5 is not required for claims under 42
U.S.C. § 1983, Plaintiffs have served Defendants’ with
such notice dated June 30, 2015, via the United States
Postal Service, Certified Mail No. 7012 1010 0003
3488 5777 5784, and Certified Mail No. 7012 1010
0003 3488 5777, on July 1, 2015. A copy of said notice

69a

and certified mail receipt is attached hereto and
marked “Plaintiffs’ Exhibit A”.

21.
Upon information and belief, Defendant Vickers
was hired by Coffee County Sheriff, Defendant
Wooten. Both Defendants were employees and agents
of the Coffee County Sheriff’s Department at the time
of the incident described herein.
22.
The claims set forth in this Complaint arise out of
Defendant Vickers deliberately, unreasonably, negligently, and unlawfully discharging his firearm twice,
ultimately shooting SDC, a minor and natural child of
Plaintiff Amy Corbitt, in the back of the leg during an
encounter on July 10, 2014.
23.
On July 10, 2014, Defendant Vickers, along with
other officers of the Coffee County Sheriff’s Department and agents of the Georgia Bureau of Investigation, participated in an operation to apprehend a criminal suspect, Christopher Barnett, whom Plaintiffs
have never met. Said operation commenced upon
property located at or near 145 Burton Road, Lot 19,
Douglas, Coffee County, Georgia, at the mobile home
and residence of Plaintiff Amy Corbitt, the minor child
SDC, and Plaintiff Jerry Rich, in pursuit of said Christopher Barnett, who had wandered into the area.

70a

24.
Defendants and fellow officers entered Plaintiff’s
property at 145 Burton Road, Lot 19, and demanded
all persons in the area, including the children, to get
down on the ground. Other than the suspect, one adult
citizen, Plaintiff Damion Stewart was on the property
outside the residence with his two children JDS and
MS, both under the age of three years. While complying with the demands of the officers, Plaintiff Stewart
was brutally handcuffed in the presence of his small
children and the barrel of a gun was placed in his
back. Others located on the property outside the said
residence included, Plaintiff Jerry Rich, a minor at the
time the incident, Plaintiff Amy Corbitt’s minor child,
SDC, Plaintiff Elizabeth Bowen’s minor child AMB,
and Plaintiff Tonya Johnson’s minor ERA. Inside the
residence included one adult, Plaintiff Amy Corbitt,
and two additional minors, JVR and ST.
25.
Plaintiff Damion Stewart’s children were left to
roam the street adjacent to the property screaming
and crying while witnessing their father being handcuffed with a gun in his back. The officers outnumbered the children, all of which remained seized by
deadly firearms aimed to kill. These children were
frightened and ultimately traumatized by these
events. At no time did Plaintiffs or their children feel
secure in their persons or free to leave nor did Plaintiffs or their children feel protected whatsoever by Defendants. It is the contentions of the Plaintiffs’ that
under similar circumstances no reasonable person
would feel secure, free to leave, or protected whatsoever by Defendants.

71a

26.
The question is “not whether the citizen perceived
that he was being ordered to restrict his movement,
but whether the officer’s words and actions would
have conveyed that to a reasonable person.” California v. Hodari D., 499 U.S. 621, 628 (1991). When the
subject of the alleged seizure is a minor, the question
is whether a reasonable child of the plaintiff’s same
age and maturity would have “believed he was free to
leave.” Doe v. Heck, 327 F.3d 492, 510 (7th Cir.2003);
see also Jones v. Hunt, 410 F.3d 1221, 1226 (10th Cir.
2005). If not, he is “seized” within the meaning of the
4th Amendment.
27.
The remaining minors located at the scene and
outside of the residence were held at gun point, each
having an officer forcefully shove the barrel of a
loaded gun into their backs. These children feared for
their lives and have been stripped of their confidence
in the justice system.
28.
While the children were lying on the ground obeying the orders of Defendant Vickers, said Defendant
unreasonably, maliciously, negligently, and without
necessity or any immediate threat or cause, discharged his firearm at the family pet named “Bruce”
twice. The first shot missed the animal, who retreated
under the residence. At no time during the interim did
Defendant Vickers ask someone to restrain the animal and at no time did any other agent or employee of

72a

Coffee County attempt to restrain or subdue the animal. Approximately eight to ten seconds elapsed since
the first shot and Defendant Vickers then discharged
his firearm at Bruce a second time as it was approaching his owners. He again missed the animal and
struck Plaintiff Amy Corbitt’s minor child, SDC, in the
back of his right knee.
29.
At the time of his injury, SDC was readily viewable to Defendant Vickers. In fact, SDC was approximately eighteen inches from Defendant Vickers, lying
on the ground, face down, pursuant to the orders of
said Defendant. Other minor children were also
within only a few feet of Defendant Vickers. No officer
or agent at the scene was required to discharge a firearm. With a large number of innocent bystanders,
mostly children in the immediate area, no use of force
should have been used aside from the arrest and physical restraint of Christopher Barnett, who was visibly
unarmed and readily compliant with Defendants. No
agent or employee at the scene had the need to shoot
at the family pet, nor did anyone appear to be threatened by its presence.
30.
The 14th Amendment provides that a state shall
not “deprive any person of life, liberty, or property,
without due process of law.” U.S. Const. amend. XIV,
§ 1. The 14th Amendment protects against certain
deprivations of people’s property, and “property” encompasses people’s pet cats and dogs. Maldonado v.
Fontanes, 568 F.3d 263 (1st Cir. 2009).

73a

31.
Upon information and belief, the above-described
use of force was grossly negligent and was in violation
of Plaintiffs’ rights as secured by the statutes and
Constitution of the United States, and those of the
State of Georgia. Further, these violations of Plaintiffs’ rights proximately resulted in serious injury to
SDC, including without limitation, mental and physical pain and suffering. Plaintiffs contend that the conduct of Defendants, and each of them individually and
severally, was of such an intentional, fraudulent, malicious or reckless nature as to warrant the imposition
of punitive damages under Federal and State law.
32.
At no time was there any cause or reason for the
unwarranted and negligent shooting of SDC, who was
only ten years of age and who offered no hindrance or
obstruction to the efforts of Defendant Vickers and
others during the apprehension of Cristopher Barnett,
a person believed to have been attempting to evade
lawful capture. Further, at no time did SDC, or any
other children assembled at that time or place, present any threat or danger to provoke Defendant Vickers to fire two shots, one of which struck SDC, who
was following all instructions demanded by Defendants. SDC was in fact lying in a prone, face down, position on the ground at the request of Defendants.
33.
SDC was treated for physical injuries caused by
the gunshot wound, at Coffee Regional Medical Center and the University Medical Center in Savannah,

74a

Georgia. It was confirmed by imaging that SDC suffered a serious gunshot wound to his right leg in the
knee vicinity. Imaging also confirmed multiple bullet
fragments throughout the area of the wound. SDC suffered not only severe pain from the gunshot wound,
but has also experienced mental trauma and problems
since the shooting and will continue to experience severe physical and mental pain and suffering throughout the foreseeable future. Plaintiff Amy Corbitt, as
parent and natural guardian of SDC, has been damaged by the past and future medical costs involved
herein, together with fright over the treatment of SDC
by Defendants.
34.
SDC is currently under evaluation by an orthopedic surgeon for the removal of several bullet fragments that remain in his leg and preventing the area
from healing properly. SDC was unable to attend the
Coffee County public school system immediately following the shooting from fear for his safety. Plaintiff
Amy Corbitt has incurred the additional expense of
homeschooling SDC.
35.
Prior to said operation Defendant Vickers, along
with several other agents and employees of Defendant
County, attended a briefing to discuss the alleged
whereabouts and apprehension of suspect Christopher Barnett. The initial plan of action stated during
the brief was to watch the area via helicopter surveillance and for a canine team to track the suspect and
set up a perimeter.

75a

36.
Defendant Vickers and two other agents and employees of Defendant County drove an unmarked undercover vehicle by the residence located at 145 Burton Road, Lot 19, Plaintiff Amy Corbitt’s residence, for
visual observations twice prior to their decision to approach the property. Moreland v. Las Vegas Metro. Police Dep’t., 159 F.3d 365, 3373 (9th Cir. 1998). As the
Sixth Circuit has stated: In situations wherein the implicated state, county, or municipal agent(s) are afforded a reasonable opportunity to deliberate various
alternatives prior to electing a course of action their
actions will be deemed conscience-shocking if they
were taken with “deliberate indifference” towards the
plaintiffs’ federally protected rights.
37.
Upon surveillance of said residence, Defendant
Vickers and other agents and employees of Defendant
County reassembled to discuss the next course of action, “the plan of action was to pull up in the yard,
approach the residence and put everyone on the
ground that was outside of the residence”, per Georgia
Bureau of Investigation Region 12 Investigative Summary of the interview conducted with Sheriff Deputy
Jared Vickers dated July 10, 2014.
38.
Upon information and belief, Defendant Vickers’
has an extensive history of using unnecessary excessive force of which Defendant Wooten is and was at
the time of the subject matter incident aware of. Defendant Vickers’ extensive prior excessive force record

76a

includes approximately ten separate occurrences in
the immediate three years prior to the subject matter
incident, the most recent of which was when Defendant Vickers shot and killed a dog during the execution
of a search warrant on or about one month prior to the
instant case.
39.
Upon information and belief, Defendant Wooten,
acting by and through his agents, employees, and officials, has breached his duties arising from and contained within O.C.G.A. § 34-7-20, where he failed to
exercise ordinary care in the employment of Defendant Vickers as a Deputy Sheriff, and his failure to adequately train said Defendant. Defendant Wooten was
aware of Defendant Vickers’ prior history of using unwarranted force as a police officer.
40.
Defendant Wooten is liable for the breach of
O.C.G.A. § 34-7-20, and for the shooting of SDC. At all
pertinent times Defendant Wooten failed to provide
adequate training and instruction as to the care and
responsibility required for the safety of bystanders
generally when effecting the arrest of criminal suspects, nor did he provide adequate training and instruction on alternative means of handling animals if
perceived as a threat.
41.
At all times during the operation conducted on
Plaintiff’s property, Defendant Vickers was equipped
with a Taser and pepper spray. Instead of using such

77a

as an appropriate alternative means to subdue Bruce,
Defendant Vickers recklessly endangered the safety of
several citizens, including minor children, in an effort
to shoot the family pet, and as a direct and proximate
cause of Defendants’ violations of Plaintiffs’ rights,
SDC suffered damages including but not limited to,
physical and emotional pain and suffering and loss of
enjoyment of life.
42.
Defendant Vickers, while acting under color of
law, unlawfully and without due process of law, deprived the Plaintiffs of the securities, rights, privileges, liberties, and immunities secured by the Constitution of the United States of America. Defendant
Vickers wantonly, intentionally, knowingly, recklessly, and excessively used unnecessary force without
any reasonable justification or probable cause.
43.
In his official capacity as a law enforcement officer, under color of state law, and acting within the
ordinary course and scope of his employment, or, alternatively, in his individual capacity, Defendant
Vickers shot at Plaintiff’s family pet a second time, ultimately striking SDC without any legal right to do so.
Altman v. City of High Point, 330 F.3d 194 (4th Cir.
2003), establishes, privately owned pet dogs do qualify
as property, such that pets are “effects” under the seizure clause of the 4th Amendment. Id. at 202-04.
44.
Defendants knew or should have known that the
officers did not have the legal right to shoot at Bruce,

78a

when Bruce posed no threat, and that other non-lethal
measures and equipment were readily available and
had been or could have been deployed prior to the decision to shoot at the dog.
45.
Defendant County and Defendant Wooten were
fully aware that more than one of its agents and employees had previously shot and killed a companion
animal, and still failed to act to provide any specific
policy, training, supervision, or oversight to protect
the property rights of its citizens against having their
companion animals unlawfully, needlessly, or unjustifiably killed or injured by its employees.
46.
Defendants had specific knowledge of custom or
practice and exhibited a deliberate indifference to the
unreasonable risk of property damage or loss, which
said practice posed. A “custom, or usage, of [a] State”
for § 1983 purposes “must have the force of law by virtue of the persistent practices of state officials.”
Adickes v. S.H. Kress Co., 398 U.S. 144, 167, 90 S.Ct.
1598, 26 L.Ed.2d 142 (1970).
47.
Defendants knew that animals were at risk from
county employees, including its police officers. Despite
more than one recent prior shooting of a pet by Defendant Vickers and more than one recent prior shooting of a pet by Deputies having occurred, Defendant

79a

County persistently failed to put in place or implement any plan to prevent such occurrences by employees of Defendant County.
48.
Acting under color of law and pursuant to official
policy, custom or widespread practice, Defendant
Vickers, recklessly or with deliberate indifference and
callous disregard of Plaintiff’s rights, and the rights of
dog owners, discharged his firearm in the immediate
vicinity of several innocent minor children and bystanders. Defendant County and Defendant Wooten
failed to instruct, supervise, control, equip, train, or
discipline on a regular and continuing basis, police officers in their duties to refrain from unlawfully shooting at animals and using excessive force against family pets that pose no immediate danger.
49.
Defendant Wooten and Defendant Vickers, prior
to this incident, knew that shooting a family pet without justification was a violation of the pet owner’s
property rights protected by the United States Constitution and as a direct and proximate result of such
conduct, SDC, a minor child, has been damaged in
various respects including, but not limited to suffering
severe mental and physical anguish due to the egregious nature of the Defendants’ actions and inactions,
all attributable to the deprivation of his constitutional
and statutory rights guaranteed by the 4th Amendment of the Constitution of the United States and protected under 42 U.S.C. § 1983.

80a

50.
Defendant Wooten and Defendant Vickers had an
affirmative duty to prevent, or aid in preventing, the
commission of such wrongs and instead, knowingly,
recklessly, or with deliberate indifference and callous
disregard of Plaintiffs’ rights and the rights of the Coffee County citizens, these defendants failed and refused to do so resulting in the shooting of a minor. A
reasonable officer would have understood that it was
unlawful for him to destroy a citizen’s personal property in the absence of a substantial public interest
that would be served by the destruction. Brown v.
Muhleberg TP, 269 F.3d 205, 211 (3d Cir. 2001).
V. CONCLUSION

51.
Specifically, Plaintiff Amy Corbitt, Individually
and as Parent and Natural Guardian of minor SDC,
seeks to recover damages in the amount of
$2,000,000.00 for special and compensatory damages
as provided by O.C.G.A. § 51-12-7, for necessary expenses consequent to the injury of said minor, including future medical expense. In addition thereto, said
Plaintiff seeks recovery for pain and suffering, emotional distress, permanent disfigurement, and punitive damages, in an amount determined by the jury.
52.
For the reasons stated herein, Plaintiffs jointly
and severally seek recovery against Defendants,
jointly and severally, for special and compensatory
damages in addition to general and punitive damages.

81a

WHEREFORE, Plaintiffs pray that this Honorable Court:
a)
Issue process and allow all Defendants to
be served as required by law;
b)
That this Court enter an Order granting
the Plaintiffs a judgement for special and
compensatory damages in addition to punitive damages, against the Defendants,
jointly and severally in the following
amounts:
1) Plaintiff Amy Corbitt, Individually and
as Parent and Natural Guardian of minor SDC, seeks damages in the amount
of $2,000,000.00 00, in addition to punitive damages in an amount to be determined by the jury as above stated;
2) Plaintiff Jerry Rich, Individually, seeks
damages in the amount of $500,000.00
in addition to punitive damages in an
amount to be determined by the jury;
3) Plaintiff Elizabeth Bowen, as Parent
and Natural Guardian of minor AMB,
seeks damages in the amount of
$500,000.00, in addition to punitive
damages in an amount to be determined
by the jury;
4) Plaintiff Tonya Johnson, as Parent and
Natural Guardian of minor ERA, seeks
damages in the amount of $500,000.00,
in addition to punitive damages in an
amount to be determined by the jury;
5) Plaintiff Damion Stewart, Individually
and as Parent and Natural Guardian of
minors JDS and MS, seeks damages in
the amount of $500,000.00, in addition

82a

c)

d)

e)

f)

to punitive damages in an amount to be
determined by the jury.
That this Court enter an Order granting
the Plaintiffs, jointly and severally, a judgment against Defendants, jointly and severally, for punitive damages, in an amount
determined by the jury;
That this Court enter an order granting attorney’s fees to the Plaintiffs in accordance
with the Court’s authority under Georgia
Law and by virtue of 42 U.S.C. § 1988, and
such other and further relief as this Court
deems just and equitable;
That in accordance with the Federal Rules
of Civil Procedure, that the Plaintiffs be
granted a trial by jury on all issues;
Award such other, further, special, extraordinary and general relief as to which the
Plaintiffs are entitled under the circumstances of this cause and as to this Court is
deemed just and proper.

PLAINTIFFS DEMAND TRIAL BY JURY.
LAW OFFICE OF BEN B. MILLS, JR.
By: /s/ Ben B. Mills, Jr.
Ben B. Mills, Jr., Attorney for Plaintiffs
Georgia State Bar No. 509500
P.O. Box 408, Fitzgerald, Georgia 31750
(229) 423-4335
benmills@millslawfirm.net

